No. 19In the

Supreme Court of the United States
CHRIMAR SYSTEMS, INC., DBA CMS
TECHNOLOGIES, INC., CHRIMAR
HOLDING COMPANY, LL C
Petitioners,
v.
ALE USA INC., FKA ALCATEL-LUCENT
ENTERPRISE USA, INC.
Respondent.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Federal Circuit

PETITION FOR A WRIT OF CERTIORARI

Robert P. Greenspoon
Counsel of Record
Flachsbart & Greenspoon, LLC
333 North Michigan Avenue,
27th Floor
Chicago, IL 60601
(312) 551-9500
rpg@fg-law.com
Counsel for Petitioners
294939

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED
Chrimar brought an action for infringement against
ALE under four patents. A jury rejected ALE’s invalidity
defenses and awarded past damages. The District Court
then awarded post-judgment ongoing royalties. The U.S.
Court of Appeals for the Federal Circuit affirmed liability
and damages, expressly holding that a partial remand
to reconstrue one patent was “immaterial to damages
because any damages that would result from the alleged
infringement of the [remanded] ’012 patent also results from
the infringement of the ’107 and ’760 patents.” App. 48a.
After the District Court’s entry of the eventually-affirmed
judgment, the Patent Trial and Appeal Board (“PTAB”)
(part of an Executive Branch agency) rendered final decisions
finding unpatentable all asserted claims (a decision later
affirmed). On this basis, the Federal Circuit ordered that
the Article III damages judgment be vacated and remanded
for dismissal. The Federal Circuit reasoned that the later
Executive Branch administrative outcome required vacating
the prior already-affirmed Article III judgment.
The questions presented are:
1. Whether the Federal Circuit may apply a finality
standard for patent cases that conflicts with the
standard applied by this Court and all other circuit
courts in nonpatent cases.
2. Whether a final judgment of liability and damages
that has been affirmed on appeal may be reversed
based on the decision of an administrative agency,
merely because an appeal having nothing to do with
liability, damages or the proper calculation of the
ongoing royalty rate is pending.

ii
RULE 29.6 STATEMENT
Chrimar Systems, Inc. is a wholly owned subsidiary
of Chrimar Holding Company LLC. No publicly held
corporation owns 10% or more of Chrimar Holding
Company LLC.

iii
PARTIES TO THE PROCEEDING
AND RELATED CASES
The parties to this proceeding are listed on the front
cover.
Related cases to this proceeding are:
• Chrimar Systems, Inc. and Chrimar Holding
Company, LLC v. Alcatel-Lucent Enterprise
USA Inc., No. 6:15-CV-00163-JDL, U.S. District
Court for the Eastern District of Texas. Judgment
entered Feb. 27, 2017.
• Chrimar Holding Company, LLC and Chrimar
Systems, Inc. v. ALE USA Inc. f/k/a AlcatelLucent Enterprise USA Inc., Nos. 2017-1848,
2017-1911, U.S. Court of Appeals for the Federal
Circuit. Judgment entered May 8, 2018.
• Chrimar Systems, Inc. and Chrimar Holding
Company, LLC v. Alcatel-Lucent Enterprise USA
Inc., No. 6:15-CV-00163-JDL, U.S. District Court
for the Eastern District of Texas. Amended Final
Judgment entered Aug. 24, 2018.
• Chrimar Holding Company, LLC and Chrimar
Systems, Inc. v. ALE USA Inc. f/k/a AlcatelLucent Enterprise USA Inc., No. 2018-2420,
U.S. Court of Appeals for the Federal Circuit.
Judgment entered Sept. 19, 2019 and rehearing
and rehearing en banc denied Dec. 13, 2019.

iv
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
RULE 29.6 STATEMENT . . . . . . . . . . . . . . . . . . . . . . . . ii
PA RTIES TO THE PROCEEDING A ND
RELATED CASES . . . . . . . . . . . . . . . . . . . . . . . . . .  iii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . . vi
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . .  viii
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL PROVISION INVOLVED . . . . . 2
INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 5
REASONS FOR GRANTING THE PETITION . . . . 12
I.

The Federal Circuit does not apply the
Restatement (Second) of Judgments . . . . . . . . . 13

II. The Fresenius panel that generated the
precedent relied on below incorrectly
believed itself bound by inapposite Supreme
Court authority . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

v
Table of Contents
Page
III. The “Fresenius / Simmons Preclusion
Principle” deepens a circuit split and
violates separation of powers by allowing
a d m i n ist rat ive out comes t o nu l l i f y
otherwise final Article III judgments . . . . . . . . 23
IV. Cr it icism of Fresenius shou ld lead
to this Court’s review . . . . . . . . . . . . . . . . . . . . . . 27
V.

This case presents an excellent vehicle . . . . . . . 29

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33

vi
TABLE OF APPENDICES
Page
A P P E N DI X A — O P I N ION OF T H E
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT, DATED
SEPTEMBER 19, 2019 . . . . . . . . . . . . . . . . . . . . . . . . 1a
APPENDIX B — ORDER OF THE UNITED
STATES DISTRICT COURT FOR THE
EASTERN DISTRICT OF TEXAS, TYLER
DIVISION, FILED SEPTEMBER 7, 2018 . . . . . . 10a
APPENDIXC—AMENDEDFINALJUDGMENT
OF THE UNITED STATES DISTRICT
COURT FOR THE EASTERN DISTRICT
OF TEXAS, TYLER DIVISION, DATED
AUGUST 24, 2018  . . . . . . . . . . . . . . . . . . . . . . . . . . . 12a
APPENDIX D — ORDER OF THE UNITED
STATES DISTRICT COURT FOR THE
EASTERN DISTRICT OF TEXAS, TYLER
DIVISION, FILED AUGUST 24, 2018  . . . . . . . . . 18a
APPENDIX E — ORDER OF THE UNITED
STATES DISTRICT COURT FOR THE
EASTERN DISTRICT OF TEXAS, TYLER
DIVISION, FILED AUGUST 8, 2018  . . . . . . . . . . 21a
APPENDIX F — OPINION OF THE UNITED
STATES COURT OF APPEALS FOR THE
FEDERAL CIRCUIT, DATED MAY 8, 2018 . . . . 29a

vii
Table of Appendices
Page
APPENDIX G — REDACTED MEMORANDUM
OPINION AND ORDER OF THE UNITED
STATES DISTRICT COURT FOR THE
EASTERN DISTRICT OF TEXAS, TYLER
DIVISION, FILED FEBRUARY 13, 2017  . . . . . . 60a
A PPENDI X H — J U DGMENT OF THE
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT, FILED
SEPTEMBER 19, 2019 . . . . . . . . . . . . . . . . . . . . . . . 84a
APPENDIX I — DENIAL OF REHEARING
OF T H E U N I T ED S TA T E S C OU RT
OF A PPE A L S FOR T H E F EDER A L
CIRCUIT, FILED DECEMBER 13, 2019 . . . . . . .85a

viii
TABLE OF CITED AUTHORITIES
Page
CASES
B&B Hardware, Inc. v. Hargis Indus., Inc.,
135 S. Ct. 1293 (2015) . . . . . . . . . . . . . . . . . . . . . . . 13-14
Block v. ITC,
777 F.2d 1568 (Fed Cir. 1985)  . . . . . . . . . . . . . . . . . .  17
Chicago & Southern Air Lines, Inc. v.
Waterman S. S. Corp.,
333 U.S. 103 (1948)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
Christo v. Padgett,
223 F.3d 1324 (11th Cir. 2000) . . . . . . . . . . . . . . . . . .  17
Clay v. United States,
537 U.S. 522 (2003) . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Clements v. Airport Auth. of Washoe County,
69 F.3d 321 (9th Cir. 1995) . . . . . . . . . . . . . . . . . . . . .  17
Cromwell v. County of Sac,
94 U.S. 351 (1877)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
Employees Own Fed. Credit Union v.
City of Defiance,
752 F.2d 243 (6th Cir. 1985) . . . . . . . . . . . . . . . . . . . . 16
ePlus, Inc. v. Lawson Software, Inc.,
789 F.3d 1349 (Fed. Cir. 2015), cert denied,
136 S. Ct. 1166 (2016)  . . . . . . . . . . . . . . . . . . . . . . . . . 24

ix
Cited Authorities
Page
ePlus, Inc. v. Lawson Software, Inc.,
790 F.3d 1307 (Fed. Cir. 2015) . . . . . . . . . . . . 23, 29, 31
Federated Dep’t Stores, Inc. v. Moitie,
452 U.S. 394 (1981)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Fresenius USA, Inc. v. Baxter Int’l, Inc.,
721 F.3d 1330 (Fed. Cir. 2013), cert denied
sub nom. Baxter Int’l, Inc. v. Fresenius
USA, Inc., 134 S. Ct. 2295 (2014) . . . . . . . . . . . . passim
Fresenius USA, Inc. v. Baxter Int’l, Inc.,
733 F.3d 1369 (Fed. Cir. 2014) . . . . . . . . . . . . . . . . 4, 17
George v. City of Morro Bay (In re George),
318 B.R. 729 (9th Cir. BAP 2004) . . . . . . . . . . . . . . . 14
Hayburn’s Case,
2 U.S. 409, 1 L. Ed. 436, 2 Dall. 409 (1792)  . . . . . . . 24
Henglein v. Colt Indus. Operating Corp.,
260 F.3d 201 (3d Cir. 2001) . . . . . . . . . . . . . . . . . . . . . 16
In re Sims,
479 B.R. 415 (Bankr. S.D. Tex. 2012), aff’d,
548 F. App’x 247 (5th Cir. 2013) . . . . . . . . . . . . . . . . . 13
Interconnect Planning Corp. v. Feil,
774 F.2d 1132 (Fed. Cir. 1985) . . . . . . . . . . . . . . . . . .  17

x
Cited Authorities
Page
John Simmons Co. v. Grier Bros. Co.,
258 U.S. 82 (1922) . . . . . . . . . . . . . . . . . . . . . . . . passim
Martin v. DOJ,
488 F.3d 446 (D.C. Cir. 2007) . . . . . . . . . . . . . . . . . . .  17
Masssaro v. United States,
538 U.S. 500 (2003) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Miller Brewing Co. v. Joseph Schlitz Brewing Co.,
605 F.2d 990 (7th Cir. 1979) . . . . . . . . . . . . . . . . . . 16-17
Moffitt v. Garr,
66 U.S. 273 (1862)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
Morrell & Co. v. Local Union 304A of United
Food & Commercial Workers,
913 F.2d 544 (8th Cir. 1990) . . . . . . . . . . . . . . . . . . . .  17
O’Reilly v. Malon,
747 F.2d 820 (1st Cir. 1984)  . . . . . . . . . . . . . . . . . . . . 16
Oil States Energy Servs., LLC v.
Greene’s Energy Grp., LLC,
138 S. Ct. 1365 (2018) . . . . . . . . . . . . . . . . . . . . . . 21, 22
Pennsylvania v. Wheeling & Belmont Bridge Co.,
59 U.S. (18 How.) 421 (1856) . . . . . . . . . . . . . . . . . . . . 23
Pharmacia & Upjohn Co. v. Mylan Pharm., Inc.,
170 F.3d 1373 (Fed. Cir. 1999) . . . . . . . . . . . . . . . 13, 15

xi
Cited Authorities
Page
Plaut v. Spendthrift Farm, Inc.,
514 U.S. 211 (1995)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
Prager v. El Paso Nat’l Bank,
417 F.2d 1111 (5th Cir. 1969)  . . . . . . . . . . . . . . . . . . . 13
Pye v. Dep’t of Transp. of State of Ga.,
513 F.2d 290 (5th Cir. 1975) . . . . . . . . . . . . . . . . .  15, 16
Qualcomm, Inc. v. FCC,
181 F.3d 1370 (D.C. Cir. 1999) . . . . . . . . . . . . 25, 26, 27
Recover Edge L.P. v. Pentecost,
44 F.3d 1284 (5th Cir. 1995) . . . . . . . . . . . . . . . . . . . . 13
Robinette v. Jones,
476 F.3d 585 (8th Cir. 2007) . . . . . . . . . . . . . . . . . . . .  17
Smith Mach. Co. v. Hesston Corp.,
878 F.2d 1290 (10th Cir. 1989) . . . . . . . . . . . . . . . . . .  17
Southern Pacific Railroad v. United States,
168 U.S. 1 (1897)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Stoll v. Gottlieb,
305 U.S. 165 (1938)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Swentek v. USAIR, Inc.,
830 F.2d 552 (4th Cir. 1987), abrogated on other
grounds as recognized by Mikels v. City
of Durham, 183 F.3d 323 (4th Cir. 1999)  . . . . . . . . . 16

xii
Cited Authorities
Page
Syverson v. Int’l Bus. Machs. Corp.,
472 F.3d 1072 (9th Cir. 2007) . . . . . . . . . . . . . . . . . . .  17
Taylor v. Sturgell,
553 U.S. 880 (2008) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Versata Computer Indus. Sol’ns, Inc. v. SAP AG,
564 Fed. App’x 600 (Fed. Cir. 2014)  . . . . . . . . . . . . . 21
Versata Software, Inc. v. SAP Am., Inc.,
No. 2:07cv153-RSP, 2014 U.S. Dist. LEXIS 54640
(E.D. Tex. Apr. 21, 2014) . . . . . . . . . . . . . . . . . . . . . . . 27
Ward v. Dixie Nat’l Life Ins. Co.,
595 F.3d 164 (4th Cir. 2010)  . . . . . . . . . . . . . . . . . . . . 26
Zdanok v. Glidden Co.,
327 F.2d 944 (2d Cir. 1964) . . . . . . . . . . . . . . . . . . . . . 16
STATUTES AND OTHER AUTHORITIES
U.S. Const. Art. III . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 31
U.S. Const. Art. III § 1 . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Fed. R. Civ. P. 60(b)(5) . . . . . . . . . . . . . . . . . . . . . . . . . . 9-10

xiii
Cited Authorities
Page
K ing & Wolfson, PTA B Rear ranging the
Face of Patent Litigation, 6 Landslide 18
(Nov./Dec. 2013) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
Michael Greve, Exceptional, After All and
After Oil States: Judicial Review and the
Patent System, Bos. U.J. Sci. & Tech. L.
(forthcoming 2020)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
P a u l R . G u g l i u z z a , ( In) v a l i d Pa t e n t s ,
92 Notre Dame L. Rev. 271 (2016)  . . . . . . . . . . . 19, 27
Peggy P. Ni, Rethinking Finality in the PTAB
Age, 31 Berk. Tech. L.J. 557 (2016) . . . . . . . . . . . . . . 28
Robert M. Masters, Jonathan R. DeFosse and
Kevin A. Ryan, “Intellectual Property Outlook:
Cases and Trends to Follow in 2020—PART 3,”
The National Law Review (March 5, 2020)  . . . . . . 30
Restatement (Second) of Judgments § 13 . . . . . . . . 13, 15
Restatement (Second) of Judgments § 13 cmt. a  . . . . . 14
Restatement (Second) of Judgments § 13 cmt. b . . . . . 14
Restatement (Second) of Judgments § 13 cmt. c  . . . . . 15
Restatement (Second) of Judgments § 13 cmt. e  . . . . . 16

xiv
Cited Authorities
Page
Restatement (Second) of Judgments § 13 cmt. f . . . . . . 15
Restatement (Second) of Judgments § 14 cmt. a  . . . . .  17
Restatement (Second) of Judgments § 15 . . . . . . . . . . .  17
Restatement (Second) of Judgments § 17 . . . . . . . . . . .  17
Restatement (Second) of Judgments § 27 cmt. l . . .  14, 17

1
PETITION FOR A WRIT OF CERTIORARI
Chrimar Systems, Inc. and Chrimar Holding
Company, LLC (collectively, “Chrimar”) respectfully
petition for a writ of certiorari to review the judgment
of the United States Court of Appeals for the Federal
Circuit in this case.
OPINIONS BELOW
The opinion affirming Chrimar’s judgment of liability
and the quantum of damages (App. 29a-59a) is unreported,
and may be found at Chrimar Holding Co., LLC v. ALE
USA Inc., Nos. 2017-1848, 2017-1911, 732 F. App’x 876,
2018 U.S. App. LEXIS 12256 (Fed. Cir. May 8, 2018)
(“Chrimar I”).
The decision affirming without opinion the PTAB
final written decisions (App. 84a) is unreported, and may
be found at Chrimar Systems, Inc. v. Juniper Networks,
Inc., Nos. 2018-1499, 2018-1500, 2018-1503, 2018-1984,
2019 U.S. App. LEXIS 28106 (Fed. Cir. Sept. 19, 2019)
(“Chrimar II”).
The opinion under review in this petition (App. 1a-9a) is
unreported, and may be found at Chrimar Systems, Inc. v.
ALE USA Inc., No. 2018-2420, 785 F. App’x 854, 2019 U.S.
App. LEXIS 28105 (Fed. Cir. Sept. 19, 2019) (“Chrimar
III”). The denial of rehearing dated December 13, 2019
(App. 85a) is unreported.
JURISDICTION
The Court of Appeals issued its decision on September
19, 2019. App. 1a. The court denied petitioner’s request for

2
rehearing and rehearing en banc on December 13, 2019.
App. 85a. This Court has jurisdiction under 28 U.S.C.
§ 1254(1).
CONSTITUTIONAL PROVISION INVOLVED
The judicial power of the United States, shall
be vested in one Supreme Court, and in such
inferior courts as the Congress may from time
to time ordain and establish. The judges, both
of the supreme and inferior courts, shall hold
their offices during good behaviour, and shall,
at stated times, receive for their services, a
compensation, which shall not be diminished
during their continuance in office.
U.S. Const. Art. III sec. 1.
INTRODUCTION
The Federal Circuit since at least 2013 has consistently
applied legal principles that permit litigants to use
Executive Branch action to escape the consequences of
final Article III judgments. These Federal Circuit legal
principles permit administrative agencies to wipe out
final Article III judgments. In dissenting opinions, a slim
minority of Federal Circuit active judges (five of twelve)
has acknowledged that such rules have created a circuit
split, and trigger significant constitutional doubt.1
1. The five active judges expressed their views in panel dissents
and dissents from denial of rehearing en banc in the Fresenius and
ePlus cases (cited infra), and are Judges Newman, Moore, O’Malley,
Reyna and Wallach.

3
This Court has emphasized that finality is important
in judicial proceedings. E.g., Masssaro v. United States,
538 U.S. 500, 504 (2003) (describing “the law’s important
interest in the finality of judgments”); Federated Dep’t
Stores, Inc. v. Moitie, 452 U.S. 394, 401 (1981) (noting “vital
public interests” served by applying rules of finality); Stoll
v. Gottlieb, 305 U.S. 165, 172 (1938) (“It is just as important
that there should be a place to end as that there should be
a place to begin litigation.”). “[E]nforcement [of judicial
finality] is essential to the maintenance of social order; for
the aid of judicial tribunals would not be invoked for the
vindication of rights of person and property if, as between
parties and their privies, conclusiveness did not attend
the judgments of such tribunals in respect of all matters
properly put in issue, and actually determined by them.
Southern Pacific Railroad v. United States, 168 U.S. 1,
49 (1897) (citations omitted).
The preclusive effect of a judgment is defined by claim
preclusion and issue preclusion, which are collectively
referred to as “res judicata.” Under the doctrine of claim
preclusion, a final judgment forecloses successive litigation
of the very same claim, whether or not relitigation of the
claim raises the same issues as the earlier suit. Issue
preclusion, in contrast, bars successive litigation of an
issue of fact or law actually litigated and resolved in a
valid court determination essential to the prior judgment,
even if the issue recurs in the context of a different claim.
A related doctrine is law of the case and the mandate
rule, under which courts must follow the final decisions of
higher courts in the same proceeding on a given topic. By
precluding parties from contesting matters that they have
had a full and fair opportunity to litigate, these doctrines
protect against the expense and vexation attending

4
multiple lawsuits, conserve judicial resources, and foster
reliance on judicial action by minimizing the possibility
of inconsistent decisions. Taylor v. Sturgell, 553 U.S. 880,
892 (2008).
In this case, the Federal Circuit deepened an existing
circuit split by applying what it called the “Fresenius /
Simmons preclusion principle.” Under this legal principle,
a judgment that has finally resolved a dispute on a meritsquestion is nearly always open to collateral attack in
administrative agency proceedings that address the same
merits-question. This “principle” deprives final, fullylitigated and fully-affirmed judgments of their finality if
two conditions are met: (1) an administrative agency later
issues a conflicting decision; and (2) the party burdened
under the judgment has preserved a non-“insubstantial”
appellate issue, on anything. The non-“insubstantial” issue
need not bear any relationship to the liability or damages
determinations that were otherwise finally-decided in the
judgment.
This so-called “Fresenius / Simmons preclusion
principle” is the sole invention of the Federal Circuit,
having been adopted by no other court. This legal rule has
earned sharp rebuke from academics and jurists alike. It
is legally incorrect and conflicts with the decisions of all
other circuits and of this Court. The legal rule incentivizes
unfairness against patentees, motivates gamesmanship
by accused infringers, leads to wasted judicial effort by
trial and appeals courts, and disincentivizes innovation by
undermining confidence in the patent system.
A slim minority of the active judges on the Federal
Circuit (five of its twelve) have called for an end to this

5
mistaken rule of law. Several academics have criticized
the rule. The rule conflicts not only with the finality rule
applied by this Court and all other Courts of Appeals, but
also with the Restatement (Second) of Judgments. This
case thus presents an ideal vehicle for this Court’s review
of its soundness.
STATEMENT OF THE CASE
1. This case arises out of ALE’s infringement of certain
Chrimar patents, which relate to improved Ethernet
equipment that permits detection and classification
of connected equipment, even where the connected
equipment is powered off. Chrimar has asserted that its
patented technology covers equipment that implements
and conforms to the IEEE 802.3af and 802.3at Power
over Ethernet (PoE) standards. App. 31a.
Chrimar is an American company whose President
and CEO (a part-owner) is one of the named inventors
on the patents-in-suit. The patents-in-suit claim priority
ultimately to a 1998 filing, i.e., one submitted to the Patent
Office over a decade before the existence of PTAB patent
trials. Chrimar sued Alcatel-Lucent USA Inc. in 2013 for
infringement of U.S. Patent No. 8,115,012 (’012 Patent).
App. 38a n.3. In 2014, Alcatel-Lucent spun out part of
its business to a new company named Alcatel-Lucent
Enterprise, of which ALE is a part. (See id.) In March 2015,
Chrimar filed a new suit against ALE for infringement of
the ’012 Patent and three related patents (U.S. Patent Nos.
8,942,107; 8,902,760; and 9,019,838), and the parties agreed
to the dismissal of the 2013 action. (See id.)
ALE initially asserted a number of defenses and
counterclaims, including various invalidity defenses

6
and counterclaims seeking declaratory judgments of
non-infringement for each of the asserted patents. But
as observed in Chrimar I, “ALE dropped many of its
defenses and counterclaims shortly before or during
[the October 2016] trial.” App. 36a. Among the defenses
and counterclaims ALE dropped were the majority of
its invalidity defenses as well as its non-infringement
counterclaims. The only defense ALE tried was invalidity
on the basis that Chrimar allegedly failed to name the
correct inventor, and the only counterclaims it tried were
alleged fraud and breach of contract through Chrimar’s
interactions with the IEEE. App. 38a. ALE stipulated to
infringement of all four patents just before trial. (See id.)
The only “issues submitted to the jury were infringement
damages, invalidity based on improper inventorship,
fraud, and breach of contract.” (See id.)
The jury rejected ALE’s invalidity defense and its
counterclaims, and awarded Chrimar damages for ALE’s
admitted infringement. App. 36a. The district court denied
ALE’s post-trial motions and entered Final Judgment on
February 27, 2017, finding that the asserted patents were
not invalid, and awarding Chrimar $324,558.34 in past
damages plus ongoing royalties in the amount of $1.2067
per PoE port for products sold by ALE after October 1,
2016. App. 60a-83a. The court awarded ongoing royalties
through March 4, 2020 for products covered by the ’012
Patent, and through April 8, 2019 for products covered by
the other three patents. App. 22a.
2. ALE appealed three issues: (i) the district court’s
denial of its motion to exclude certain damages testimony;
(ii) ALE’s fraud counterclaim; and (iii) certain claim
constructions. App. 36a-37a. Importantly, although it had

7
the opportunity to do so, ALE did not appeal the judgment
that the patents were not invalid, and did not appeal the
ongoing royalty calculation. In other words, ALE did not
contest on appeal the district court’s determination of no
invalidity, nor the district court’s award of (or amount of)
ongoing royalties.
The Federal Circuit rejected ALE’s first two
arguments (damages and fraud, App. 48a-58a), but agreed,
in part, with ALE on the third, holding that one of the
district court’s claim constructions—“adapted” in the
’012 Patent—was incorrect (App. 37a-42a). Nevertheless,
the Court explained that while the revision of the claim
construction required “remand for further proceedings on
infringement of the ’012 [P]atent,” a new trial on damages
was unwarranted:
Given the (affirmed) judgment of infringement
of the ’107 and ’760 patents, the absence of an
infringement judgment on the ’012 patent is
immaterial to damages because any damages
that would result from the alleged infringement
of the ’012 patent also results from the
infringement of the ’107 and ’760 patents.
App. 48a.
3. A s mentioned, Chrimar had sued A LE for
infringement in March 2015. Nevertheless, for the yearand-a-half between the filing of the complaint and trial,
ALE never challenged any of the patents-in-suit through
administrative agency proceedings. But an unrelated
company did: Juniper Networks. Juniper filed multiple
inter partes review (IPR) proceedings on the patents-in-

8
suit in July 2016, months before the October 2016 trial.
ALE did not request to join those proceedings, nor did
it ask the district court to stay the lawsuit while those
proceedings remained pending. Instead, ALE’s litigation
strategy was to stipulate to infringement of Chrimar’s
patents and proceed to trial asserting no invalidity
defenses other than one for alleged improper inventorship.
The administrative agency (the USPTO, through
the Patent Trial and Appeal Board (PTAB)) instituted
the Juniper IPRs in December 2016 and January 2017,
before the district court entered its Final Judgment on
February 27, 2017. ALE did not ask the district court to
stay entry of the judgment pending the outcome of the
IPRs. Nor did it object to the district court’s award of
ongoing royalties in the Final Judgment for any reason,
including the ongoing IPRs.
ALE submitted its Appellant’s brief in Chrimar I on
July 31, 2017. There, ALE identified the pending IPRs
in the “Statement of Related Cases.” But ALE neither
asked the Federal Circuit to stay the appeal, nor did it
assert that the IPR proceedings should have any impact
on the appeal.
The PTAB issued Final Written Decisions finding
unpatentable certain claims of the patents-in-suit on
December 20, 2017 (’107 Patent); December 29, 2017 (’838
Patent); January 23, 2018 (the ’012 Patent); and April 26,
2018 (the ’760 Patent)— all before the Federal Circuit
issued its May 8, 2018 Chrimar I opinion. The Federal
Circuit was aware of the IPR decisions when it issued that
opinion. App. 34a-35a n.2.

9
4. Rather than waste judicial resources by requiring
the district court to engage in an academic exercise
to determine infringement of the ’012 Patent where
the appeals court had affirmed the damages award in
full, Chrimar instead moved to voluntarily dismiss its
infringement claims for the ’012 Patent with prejudice,
and asked the district court to enter an Amended Final
Judgment. Only because ALE asked Chrimar to do
so, Chrimar also provided ALE with an unconditional,
irrevocable covenant not to sue ALE for infringement of
the ’012 Patent.
Because infringement of the ’012 Patent was the only
issue remanded by the Federal Circuit in Chrimar I,
Chrimar’s voluntary removal of that patent (and related
stipulation to an earlier expiration of ongoing royalties)
should have ended this case. Remarkably, however,
ALE opposed Chrimar’s motion to dismiss and also
moved to stay enforcement, arguing that ALE still had
counterclaims pending for the ’012 Patent. As the district
court found, it did not. App. 24a.
Accordingly, with the only remanded issue voluntarily
dismissed with prejudice and consideration of all other
issues foreclosed by the Chrimar I mandate, the district
court dismissed the infringement claims for the ’012
Patent and denied ALE’s motion to stay. App. 21a-28a.
ALE asked the court to reconsider, an invitation the court
declined. App. 18a-20a. Instead, the court entered an
Amended Final Judgment removing references to the ’012
Patent in accordance with the parties’ agreement. App.
12a-17a. ALE then renewed its motion to stay, re-urging
the exact same arguments it raised in its first two motions,
but purporting for the first time to bring it under Federal

10
Rule of Civil Procedure 60(b)(5), which offers relief from
“final judgments”—a motion that omitted any request to
vacate the entire underlying judgment. The court again
denied the motion, ALE’s third in six weeks on the exact
same subject. App. 10a-11a. Within its fusillade of postremand motions, ALE made no request for the district
court to vacate the entire past damages judgment, based
on Juniper’s IPR outcomes or otherwise.
ALE appealed to Federal Circuit, complaining of
the district court’s grant of Chrimar’s request to declare
the case already over through voluntary dismissal with
prejudice of the ’012 Patent, and its refusal to stay the
ongoing-royalties award that ALE did not appeal in
Chrimar I. ALE did not appeal the continued vitality of
the judgment for past damages.
5. Rather, ALE kept alive for appellate review the
nearly irrelevant question of how thoroughly did Chrimar
dismiss the single remanded patent (the ’012 patent) from
a case that was already over. This was the same patent
that the Federal Circuit said did not affect damages, and
that Chrimar forewent pursuing, waiving all relief from
ALE (i.e., waiving the last 11 months of an unchallenged
ongoing royalty amount). As explained below, the Federal
Circuit never reached that question, instead going beyond
appealed issues to address the effect of administrative
agency proceedings. App. 9a (“[W]e do not decide whether
ALE is correct on the merits of the just-discussed
contentions.”).
The Federal Circuit issued two decisions on the same
day. In the Juniper case (Chrimar II), the Federal Circuit
affirmed without opinion. App. 84a. It thus upheld the

11
Executive Branch determination that Juniper had proved
unpatentability by a preponderance of the evidence.
The other decision (App. 1a-9a) is the one subject
to the present petition. In Chrimar III, the same panel
ordered that the judgment previously affirmed be vacated
and remanded for dismissal. Rather than finding that the
earlier District Court judgment operated as a preclusion
against ALE making invalidity arguments, the Federal
Circuit found that the later administrative outcome
operated as a preclusion against Chrimar asserting that
its patents were valid.
The Federal Circuit applied what it calls the
“Fresenius / Simmons preclusion principle” in evaluating
when a judgment is final enough to be immune from
collateral attack in administrative agency proceedings.
The Fresenius part refers back to a 2013 Federal Circuit
decision. Fresenius USA, Inc. v. Baxter Int’l, Inc., 721
F.3d 1330, 1355-58 (Fed. Cir. 2013), cert denied sub nom.
Baxter Int’l, Inc. v. Fresenius USA, Inc., 134 S. Ct. 2295
(2014). The Simmons part refers back to a 98-year old
decision of this Court. John Simmons Co. v. Grier Bros.
Co., 258 U.S. 82 (1922).
This Federal Circuit “principle” deprives final, fullylitigated and fully-affirmed judgments of their finality,
if two conditions are met: (1) an administrative agency
later issues a conflicting decision; and (2) the party
burdened under the judgment has preserved a non“insubstantial” appellate issue, regardless of whether
its issue has anything to do with the liability or damages
determinations underpinning the judgment. App. 5a-9a.

12
Under this principle, no final judgment precludes
a losing litigant from pressing lost issues while a case
remains pending, and a case remains pending until all not
“insubstantial” arguments about any issues remaining
in the case have been finally resolved on appeal—even if
those issues are unrelated to a claim previously decided
by the district court in a judgment upheld on appeal. App.
4a-5a.
Chrimar petitioned for rehearing en banc. Forty-one
amici curiae (represented through five amicus briefs)
supported Chrimar’s petition. The Federal Circuit denied
rehearing without opinion. App. 85a.
REASONS FOR GRANTING THE PETITION
The Federal Circuit’s decision extends and deepens
a circuit split on the important issue of when a judicial
decision becomes binding on the parties, and whether
a decree from a different branch of government can
reverse an Article III court judgment. This case presents
an excellent vehicle for the Supreme Court to address
these issues. The so-called “Fresenius / Simmons
preclusion principle” has received sharp criticism from
academics and jurists. It is legally incorrect. And,
this principle incentivizes unfairness for patentees,
motivates gamesmanship by accused infringers, leads
to wasted judicial effort by trial and appeals courts and
prolongation of litigation, and disincentivizes innovation
by undermining confidence in the patent system.

13
I.

The Federal Circuit does not apply the Restatement
(Second) of Judgments.

The Federal Circuit applied its own unique “Fresenius
/ Simmons preclusion principle” to find that this case
lacked a final-enough judgment because issues outside
the scope of the appellate mandate remained to be
determined. This principle conflicted with the governing
Fifth Circuit standard, under which “a judgment may be
final [for preclusion purposes] even though an appeal is
pending or a lower court has yet to fully dispose of the
matter from which the issue arises.” In re Sims, 479 B.R.
415, 421–22 (Bankr. S.D. Tex. 2012), aff’d, 548 F. App’x 247
(5th Cir. 2013) (citing Prager v. El Paso Nat’l Bank, 417
F.2d 1111, 1112 (5th Cir. 1969)). The Federal Circuit should
have (but did not) apply this Fifth Circuit standard. See
Pharmacia & Upjohn Co. v. Mylan Pharm., Inc., 170 F.3d
1373, 1381 n.4 (Fed. Cir. 1999) (“[B]ecause the application
of general collateral estoppel principles, such as finality of
judgment, is not a matter within the exclusive jurisdiction
of this court, we must apply the law of the circuit in which
the district court here sits.”).
Applying Fifth Circuit law, as it should have, the
Federal Circuit would have prevented any further
litigation related to damages or to infringement of three
of the patents-in-suit. The judgment was sufficiently
firm to be accorded conclusive effect, even assuming
other issues remained unresolved. This is because all
federal courts, including the Fifth Circuit, look to the
Restatement to determine a judgment’s preclusive effect,
and related issues of finality. See, e.g., Recover Edge L.P.
v. Pentecost, 44 F.3d 1284, 1295 (5th Cir. 1995) (citing
Restatement (Second) of Judgments, § 13); see also B&B

14
Hardware, Inc. v. Hargis Indus., Inc., 135 S. Ct. 1293,
1303 (2015) (stating the Supreme Court “regularly turns
to the Restatement (Second) of Judgments for a statement
of the ordinary elements of [preclusion]”); Clay v. United
States, 537 U.S. 522, 527 (2003) (“[A] federal judgment
becomes final for [] claim preclusion purposes when the
district court disassociates itself from the case, leaving
nothing to be done at the court of first instance save
execution of the judgment.”) (citing Restatement, § 13,
cmt. b); George v. City of Morro Bay (In re George),
318 B.R. 729, 733 (9th Cir. BAP 2004) (“The Supreme
Court treats the Restatement (Second) of Judgments
(“Restatement”) as an authoritative statement of federal
res judicata doctrines . . . .”). Applying the Restatement’s
plain language, an infringer subject to a damages
judgment has no right in any forum to relitigate a lost
invalidity case, except on direct appeal of the judgment
of no invalidity. Restatement (Second) of Judgments, § 17
(claim or defense “extinguished” when within the scope of
a “final personal judgment,” which is “conclusive between
the parties, except on appeal or direct review”).
The Restatement anticipates and resolves the very
situation here—parallel proceedings on the same issue.
Sections 14 and 27 provide that when two pending cases
involve the same claim or issue, it is the “final judgment
first rendered” that controls the parties to the first
proceeding. Restatement (Second) of Judgments § 14 cmt.
a; see also id. § 27 cmt. l (“first final judgment rendered.”).
Here, the first rendered judgment on the issue of patent
validity is that of February 27, 2017 at the district court.
That judgment predated the PTAB decisions rendered
between December 2017 and April 2018.

15
Nor does the Restatement leave room for deeming
a judgment “nonfinal” for preclusion purposes because
of lingering disputes unrelated to liability or damages.
Section 13 provides that a “‘final judgment’ includes
any prior adjudication of an issue in another action that
is determined to be sufficiently firm to be accorded
conclusive effect.” Restatement (Second) of Judgments,
§ 13. A “sufficiently firm” adjudication is one that is the
“‘last word’ of the rendering court.” Restatement (Second)
of Judgments, § 13, cmt. a. Here, the “last word” was
the 2017 district court judgment that resolved liability,
past damages, and determination of the ongoing royalty.
Appeal from that judgment did not obviate finality.
Restatement (Second) of Judgments, § 13, cmt. f; see also
Pharmacia & Upjohn, 170 F.3d at 1381.
Neither the presence of ongoing royalties, nor the
remand of one issue in Chrimar I that was “immaterial”
to damages, changes the calculus. Continuing litigation
on matters not germane to liability or damages should
not undermine finality. See, e.g., Pye v. Dep’t of Transp.
of State of Ga., 513 F.2d 290, 292 (5th Cir. 1975) (“To be
final a judgment does not have to dispose of all matters
involved in a proceeding.”). For example, a “judgment
concluding an action is not deprived of finality for purposes
of res judicata by reason of the fact that it grants or
denies continuing relief, that is, requires the defendant, or
holds that the defendant may not be required, to perform
acts over a period of time.” Restatement (Second) of
Judgments, § 13, cmt. c.
Under the Fifth Circuit’s final judgment standard,
a final judgment does not have to dispose of all matters
involved in the proceeding. Pye, 513 F.2d at 292. For

16
example, in Pye, the appellate court affirmed the lower
court’s merits decision but remanded the case on the issue
of damages. Id. The Fifth Circuit held that the lower
court’s continuing jurisdiction on the issue of damages
did not deprive the judgment on the merits of finality for
the purposes of issue preclusion. Id.
And re-opening one part of a judgment does not affect
the preclusive nature of the rest. “A judgment may be final
in a res judicata sense as to a part of an action although the
litigation continues as to the rest.” Restatement (Second)
of Judgments, § 13, cmt. e; see also, Fresenius USA,
Inc. v. Baxter Int’l, Inc., 733 F.3d 1369, 1380 (Fed. Cir.
2014) (O’Malley, dissenting from denial of reh’g en banc)
(finality in modern law applied “less strictly for preclusion
purposes than for purposes of appeal”).
On this point, in her panel dissent in Fresenius, Judge
Newman provided case examples of every single circuit,
including the Federal Circuit itself, respecting the finality
of judgments for preclusion purposes, “for issues that were
litigated and decided.” Fresenius, 721 F.3d at 1355-58
(Newman, J., dissenting, discussing caselaw from First
through Eleventh, D.C. and Federal Circuits). 2 Judge
2. Judge Newman’s non-exhaustive “sampling” of these cases
included the following: O’Reilly v. Malon, 747 F.2d 820, 822-23 (1st
Cir. 1984) (per curiam); Zdanok v. Glidden Co., 327 F.2d 944, 954-55
(2d Cir. 1964); Henglein v. Colt Indus. Operating Corp., 260 F.3d
201, 209-10 (3d Cir. 2001); Swentek v. USAIR, Inc., 830 F.2d 552,
561 (4th Cir. 1987), abrogated on other grounds as recognized by
Mikels v. City of Durham, 183 F.3d 323, 331-33 (4th Cir. 1999); Pye
v. Department of Transp. of Ga., 513 F.2d 290, 292 (5th Cir. 1975);
Employees Own Fed. Credit Union v. City of Defiance, 752 F.2d 243,
245 (6th Cir. 1985); Miller Brewing Co. v. Joseph Schlitz Brewing Co.,

17
Newman noted that the Fresenius panel majority “insist
that no appellate judgment is final as to any issue finally
decided, if there is a remand on a different aspect of the
case.” Id. at 1358. Judge Newman concluded that such
“doctrinaire approach has been rejected throughout the
federal system,” and stands against “heavy and uniform
weight” among the circuit courts. Id. Certiorari review can
address and eliminate this inter- and intra-circuit split.
Finally, post-judgment administrative invalidation
of a patent should not nullify a prior judgment on the
spurious ground that the later of two inconsistent
judgments has preclusive effect. It is the earlier one that
controls. Restatement (Second) of Judgments § 14 cmt. a;
see also id. § 27 cmt. l (“first final judgment rendered.”).
There does exist an exception that reverses this order,
but to qualify for the exception, there must have been (1)
availability of a preclusion argument in the second (later)
action that the holder does not assert, followed by (2) a
third action. Here, Chrimar did not waive a preclusion
argument at the PTAB (indeed, none was available against
Juniper Networks), nor is this a third proceeding (since
it is still the first one). See Fresenius, 733 F.3d at 1380
n.8 (O’Malley, J., dissenting from denial of reh’g en banc)
(distinguishing Restatement (Second) of Judgments, § 15).
605 F.2d 990, 996 (7th Cir. 1979); Robinette v. Jones, 476 F.3d 585,
589 (8th Cir. 2007); Morrell & Co. v. Local Union 304A of United
Food & Commercial Workers, 913 F.2d 544, 563-64 (8th Cir. 1990);
Syverson v. Int’l Bus. Machs. Corp., 472 F.3d 1072, 1079 (9th Cir.
2007); Clements v. Airport Auth. of Washoe County, 69 F.3d 321,
330 (9th Cir. 1995) Smith Mach. Co. v. Hesston Corp., 878 F.2d 1290,
1293 (10th Cir. 1989); Christo v. Padgett, 223 F.3d 1324, 1338-39
(11th Cir. 2000); Martin v. DOJ, 488 F.3d 446, 455 (D.C. Cir. 2007);
Interconnect Planning Corp. v. Feil, 774 F.2d 1132, 1135 (Fed. Cir.
1985); Block v. ITC, 777 F.2d 1568, 1571-72 (Fed Cir. 1985).

18
These preclusion principles should apply even though
Chrimar seeks a preclusion holding in the same case
that contains the final judgment. 3 Even the Fresenius
panel majority called it “correct” to use “well-established
principles of res judicata” to inquire when a judgment
becomes final enough to be immune to PTAB cancellation
during a subsequent appeal in the same case. Fresenius,
721 F.3d at 1340-42 (interpreting remand for recalculation
of the ongoing royalty rate as “defeat[ing] preclusion
entirely” to make the judgment insufficiently final). It
is therefore beyond debate that res judicata principles
(embodied in the Restatement) should control what level
of finality a judgment in the same case must have to be
immune to PTAB cancellation. But the Federal Circuit
did not apply this well-established law.
II. The Fresenius panel that generated the precedent
relied on below incorrectly believed itself bound by
inapposite Supreme Court authority.
1. The source of the misguided “Fresenius / Simmons
preclusion principle” is, of course, the Federal Circuit’s
earlier Fresenius case. That is where the Federal Circuit
generated its bright line test that makes federal court
judgments vulnerable to administrative nullification.
Granting cert in this case can expose and correct the
mistakes in the Fresenius majority analysis.
3. All of Chrimar’s arguments supporting certiorari hold force,
regardless of which specific preclusion doctrine applies, whether
it be law of the case, the mandate rule, claim or issue preclusion.
Fresenius, 733 F.3d at 1383 (Newman, J., dissenting from denial of
reh’g en banc) (identifying law of the case and the mandate rule as
the relevant preclusion doctrine).

19
In particular, the panel majority in Fresenius
incorrectly believed itself bound to apply John Simmons
Co. v. Grier Bros. Co., 258 U.S. 82 (1922). The Fresenius
panel majority believed that the 1922 Simmons decision
“demonstrates that the district court must apply
intervening legal developments affecting the asserted
patent’s validity, even if the court of appeals already
decided the validity issue the other way.” Fresenius, 721
F.3d at 1342 (emphasis added). But one academic has
identified numerous flaws in this conclusion. See Paul
R. Gugliuzza, (In)valid Patents, 92 Notre Dame L. Rev.
271, 313-14 (2016) (“It is a stretch to claim, as the Federal
Circuit has, that Simmons is controlling in modern cases
involving inconsistent validity decisions by a court and the
PTO;” noting several reasons).
Judge O’Malley’s Fresenius dissent from denial
of rehearing en banc ably explains why Simmons
(and another case) should not have led mandatorily to
the Fresenius holding. Those earlier cases involved
interlocutory decisions in which no measure of damages
had been established, rather than appeal from a final
judgment and completed accounting. Judge O’Malley
explained the distinction:
Neither of those cases, however, involved an
appeal from a final judgment and completed
accounting (i.e., in those cases, no measure
of damages had been established). . . .
[I]n Simmons, the Supreme Court noted the
interlocutory nature of the appeal, and stated
that the judgment was not “final” because “an
accounting,” which at the time was the only
procedure by which damages for infringement

20
were calculated, “was necessary to bring
the suit to a conclusion upon the merits.”
Simmons, 258 U.S. at 89 (emphasis added).
The circumstances here are entirely different.
Final judgment was entered, the calculation
of past damages had occurred, and appellate
review of those determinations had concluded.
Baxter’s right in the judgment had vested.
In other words, unlike in Mendenhall and
Simmons, a true “accounting” had occurred. . . .
Consequently, nothing in either Mendenhall
or Simmons suggests that an administrative
agency’s actions can undermine the conclusive
resolution of rights by the courts.
Fresenius, 733 F.3d at 1378 (O’Malley, J., dissenting from
denial of reh’g en banc). These same observations apply
here. That this Court in Simmons revisited a merits
judgment in a case that was still open without a damages
award does not mandate doing so in a case containing a
truly final judgment, complete with a calculated damages
award. 4
In short, Federal Circuit judges themselves (and at
least one academic) have raised substantial questions
over whether the Simmons decision gives support at all
for the “Fresenius / Simmons preclusion principle.” See
also Fresenius, 721 F.3d at 1360 (Newman, J., dissenting).
This supplies yet further justification for certiorari review.
4. In addition, Simmons related solely to court-to-court
relations and was irrelevant to the constitutional question of whether
an administrative agency can override a prior judicial decision on
the same issue.

21
2. Though the Federal Circuit did not adopt such
reasoning, ALE has in the past argued that patent
determinations are somehow different and unique. ALE
has argued that ordinary rules of finality do not apply
when PTAB decisions are involved, on grounds that
PTAB outcomes “extinguish” a cause of action, or render
a patent “void ab initio.” (Federal Circuit ECF#114, at
11, 14, citing Moffitt v. Garr, 66 U.S. 273, 283 (1862)).
ALE’s argument goes too far. If ALE were right, then a
judgment could never become final enough to be immune
to an administrative agency unpatentability outcome—a
result even the Fresenius panel decision avoids. That
is why “extinguishment” is not the theory underlying
Fresenius, but rather issue preclusion (or, at least an
incorrect application of issue preclusion). Accord Versata
Computer Indus. Sol’ns, Inc. v. SAP AG, 564 Fed. App’x
600 (Fed. Cir. 2014) (permitting enforcement of judgment
that Federal Circuit deemed final enough, despite parallel
PRAB invalidation) (non-precedential). Indeed, Moffitt
does not support ALE’s argument anyway. It is inapposite.
Moffitt involved a voluntary surrender of patent rights
in order to obtain a reissue patent. 66 U.S. at 283. This
is not a reissue patent case. There was no surrender.
Nothing in Moffitt suggests that PTAB outcomes (which
are involuntary) render a patent “extinguished” or “void
ab initio.”
ALE has also argued that Chrimar’s position is
somehow inconsistent with Oil States Energy Servs.,
LLC v. Greene’s Energy Grp., LLC, 138 S. Ct. 1365
(2018). That decision held that PTAB tribunals do not
assert the “judicial power,” and thus do not structurally
violate separation of powers. If anything, the Oil States
result underscores how anomalous it is that government

22
employees who do not assert the judicial power render
decisions that can wipe out final Article III judgments.
More pointedly, Oil States did not address what level of
finality makes Article III judgments immune to later
administrative agency unpatentability decisions—a
different type of separation of powers issue.
ALE has also argued that Chrimar’s effort to preserve
its Article III judgment reflects an improper request for
an award of damages on invalid patent claims. But such
rhetoric sidesteps the Federal Circuit’s departure from
legal norms. The standards governing finality have always
existed in the shadow of a potentially meritorious “second
bite” from a losing litigant. Even so, the law has already
balanced the competing policy concerns, coming down in
favor respecting finality by means of tying the hands of a
litigant who “shot and missed” in a first proceeding.
Chrimar’s position is in harmony with patent policy. A
PTAB-canceled patent is no threat to the general public.
Only the losing litigant who had due process in a first
fair proceeding must bear the burden of its having lost a
validity contest that it had every chance to win. Applying
longstanding rules of finality and preclusion would in
no way threaten the general public’s right to practice
invalidated patent claims.
Indeed, that a second proceeding resulted in
invalidity only cements that this case is a proper
vehicle, starkly presenting the particular issue of two
inconsistent decisions on the same issue, whereupon
courts must respect the finality of the first one. This
Court’s longstanding precedent reveals that the Federal
Circuit approach is in error, and that this case does not

23
raise any substantial question of improper rent-seeking
under invalid patents. Having won a damages judgment,
Chrimar’s right to collect those damages from a single
party arises directly from the judgment and no longer
depends on the underlying patent. Cromwell v. County
of Sac, 94 U.S. 351, 353 (1877) (“Such demand or claim,
having passed into judgment, cannot again be brought
into litigation between the parties in proceedings at law
upon any ground whatever.”); Pennsylvania v. Wheeling
& Belmont Bridge Co., 59 U.S. (18 How.) 421, 431 (1856)
(“[I]f the remedy in this case had been an action at law, and
a judgment rendered in favor of the plaintiff for damages,
the right to these would have passed beyond the reach of
the power of congress.”).
III. The “Fresenius / Simmons Preclusion Principle”
deepens a circuit split and violates separation of
powers by allowing administrative outcomes to
nullify otherwise final Article III judgments.
Judges of the Federal Circuit have also correctly
identified a intrinsic constitutional violation. The
“Fresenius / Simmons preclusion principle” raises
implicit constitutional concerns over a rule that allows
an administrative agency decision to nullify a court
judgment that has otherwise resolved the merits and
damages of a patent infringement suit. See ePlus, Inc. v.
Lawson Software, Inc., 790 F.3d 1307, 1315 (Fed. Cir. 2015)
(O’Malley, J., joined by Wallach, J., dissenting from denial
of reh’g en banc) (noting “the constitutional concerns
raised by both this case and [Fresenius]”); Fresenius,
733 F.3d at 1373 n.1 (O’Malley, J., joined by Rader, J.
and Wallach, J.) (agreeing there are “constitutional
implications” identified by the panel dissent); Fresenius,

24
721 F.3d at 1352-53 (Newman, J., dissenting) (“My
colleagues endorse administrative abrogation of final
judicial decisions, despite the constitutional prohibition as
explained from the earliest days of the nation in Hayburn’s
Case, 2 U.S. 409, 1 L. Ed. 436, 2 Dall. 409 (1792) (the federal
judiciary will not render judgments subject to revision,
suspension, modification or other review by executive or
legislative branches).”). This case presents a proper vehicle
for the Court to address these constitutional questions.
Permitting an administrative ruling to vacate the binding
effect of an Article III judgment under Chrimar III
transforms the decision in Chrimar I into an advisory
opinion that could be “revised and controlled” by the
Executive Branch in violation of centuries of this Court’s
separation of powers rulings to the contrary. Hayburn’s
Case, 2 U.S. (2 Dall.) 409, 411 (1792).
In particular, the Federal Circuit decision here
expanded Fresenius and thus deepened a circuit split.
Whereas in Fresenius, a panel of the Federal Circuit
found finality lacking because of an appellate command to
recalculate post-judgment ongoing royalties, the instant
Chrimar III decision found finality lacking even though
ongoing royalties were not subject to a rate recalculation.
As noted before, the Chrimar I panel found it “immaterial”
to royalty calculations that claim interpretation under one
of four adjudged patents required a remand. App. 48a.
This expansion of Fresenius deepens the circuit split
already identified by several Federal Circuit judges.
See, e.g., ePlus, Inc. v. Lawson Software, Inc., 789 F.3d
1349, 1370 (Fed. Cir. 2015), cert denied, 136 S. Ct. 1166
(2016) (O’Malley, J., dissenting) (“[T]he majority opinion
further deepens the circuit split between our court’s

25
approach to finality and that of our sister circuits, as
identified by Judge Newman in her dissent in Fresenius
II, 721 F.3d at 1355-59 (Newman, J., dissenting).”). This
expansion of Fresenius also deepens the circuit split on
the constitutional Separation of Powers question.
The case that exemplifies a proper treatment of the
issue is Qualcomm, Inc. v. FCC, 181 F.3d 1370, 1372
(D.C. Cir. 1999). Qualcomm held that after the merits
of a suit have been decided by a court of appeals and the
appellate mandate issues, another branch of government
cannot negate the merits ruling, even while a remand to
determine the appropriate remedy is still pending. Id. at
1376, 1378-79. Qualcomm had applied for an FCC license,
but was rebuffed. Id. at 1372. The D.C. Circuit vacated
that portion of the FCC ruling, and remanded for further
proceedings on the proper remedy. Id. at 1373. After the
mandate, Congress removed statutory authority for the
FCC to grant such a license. Id. at 1373-74. The agency
on remand then dismissed the license proceedings on the
basis that it “no longer had authority to act on it.” Id. at
1375. Thus in Qualcomm, the legislative branch acted
through legislation to subvert an earlier appellate court
remand order to the FCC.
But the Qualcomm court ruled that constitutional
separation of powers forbade another branch’s interference
with a final appellate court judgment. Id. at 1376. The FCC
had “no discretion on remand” to reconsider the merits
of the license application, holding that the intervening
legislation did not deprive the FCC of authority because
the court determination of Qualcomm’s entitlement to
relief no longer depended on the underlying statute but
rather on the court’s mandate. Id. Hence, the D.C. Circuit’s

26
rule, if applied here, would have led to the opposite
outcome in the instant proceedings.
Qualcomm, but not Fresenius, is consistent with this
Court’s precedent. This Court’s decisions have recognized
several kinds of “unconstitutional restriction[s] upon the
exercise of judicial power.” Plaut v. Spendthrift Farm,
Inc., 514 U.S. 211, 218 (1995). Two concern the effect of
judgments once they have been rendered: “Congress
cannot vest review of the decisions of Article III courts
in officials of the Executive Branch,” id., because to do
so would make a court’s judgment merely “an advisory
opinion in its most obnoxious form,” Chicago & Southern
Air Lines, Inc. v. Waterman S. S. Corp., 333 U.S. 103, 113
(1948). And Congress cannot “retroactively command[] the
federal courts to reopen final judgments,” because Article
III “gives the Federal Judiciary the power, not merely to
rule on cases, but to decide them, subject to review only
by superior courts in the Article III hierarchy.” Plaut,
514 U.S., at 218-219 (emphasis in original).
The unifying constitutional principle among these
restrictions is that neither branch—whether legislative
or executive—can properly interfere with or nullify an
Article III final judgment. 5 Yet that is what the “Fresenius
/ Simmons preclusion principle” allows. Under Chrimar
5. Cf. Ward v. Dixie Nat’l Life Ins. Co., 595 F.3d 164, 178 (4th
Cir. 2010) (“Were we to accept [defendant’s] argument” that the state
legislature’s enactment of a statutory change after the mandate had
issued on a Fourth Circuit ruling adopting the opposite definition
required the Fourth Circuit’s decision to be overturned, “we would be
forced to decide whether the legislature’s action was unconstitutional
under Plaut on the ground that our decision in Ward I constituted
a ‘final judgment.’”).

27
III, a court’s merits ruling can be vacated even after the
mandate has issued, as long as any aspect of the case
remains on appeal. Under Qualcomm, a merits ruling
is final once the mandate has issued, regardless of later
developments in another branch of government. This
Court should therefore grant certiorari to end the circuit
split, and evaluate the “Fresenius / Simmons preclusion
principle” against important constitutional limits.
IV. Criticism of Fresenius should lead to this Court’s
review.
Judges of the Federal Circuit and elsewhere, and
academics, have all sharply criticized the Fresenius
decision—the legal principle applied in the present
Chrimar III decision addressed by this petition. See e.g.,
Versata Software, Inc. v. SAP Am., Inc., No. 2:07cv153RSP, 2014 U.S. Dist. LEXIS 54640, at *10 (E.D. Tex.
Apr. 21, 2014) (“To hold that later proceedings before
the PTAB can render nugatory that entire [judicial]
process, and the time and effort of all of the judges and
jurors who have evaluated the evidence and arguments
would do a great disservice to the Seventh Amendment
and the entire procedure put in place under Article III
of the Constitution.”); Michael Greve, Exceptional, After
All and After Oil States: Judicial Review and the Patent
System, Bos. U.J. Sci. & Tech. L., at 32-33 (forthcoming
2020) (available at http://dx.doi.org/10.2139/ssrn.3381076)
(criticizing Fresenius “absolute finality” rule as “doubly
problematic,” and noting that “[i]nfringement actions
threaten to become a farce if the Article III action is merely
a trial run for subsequent administrative proceedings”);
Gugliuzza, (In)valid Patents, 92 Notre Dame L. Rev. at 308
(Fresenius’s “absolute finality rule encourages wasteful

28
procedural maneuvering, allows an adjudged infringer
a second chance at proving invalidity, and threatens
separation of powers by permitting an administrative
agency to effectively nullify court judgments.”); Peggy
P. Ni, Rethinking Finality in the PTAB Age, 31 Berk.
Tech. L.J. 557 (2016) (“[T]he incentive to prolong district
court litigation so that alleged infringers may potentially
receive a favorable PTO decision of invalidity increases
gamesmanship, a result that harms the public and patent
holder.”). A commentator writing for the magazine of
the ABA’s Intellectual Property Section noted that the
Fresenius decision “is far out of step with well-established
[finality] principles in the regional circuits” and is “unlikely
to be the last word on inconsistent judgments” between
the Executive Branch and the courts. See King & Wolfson,
PTAB Rearranging the Face of Patent Litigation, 6
Landslide 18, 22 (Nov./Dec. 2013).
Judge Moore also explained why a dual track system of
parallel validity litigation that permits PTAB nullification
of final judgments encourages “gamesmanship” by
infringement defendants. Defendants can (and do) seek
administrative outcomes absolving them of their patent
infringement liabilities under final Article III judgments.
More generally, there are problems with a
system which permits defendants to snatch
victory from the already closed jaws of defeat.
Whether these problems are to be resolved
by the Supreme Court through its precedent
on finality or through Congress, this sort of
gamesmanship ought to be curtailed. I have no
problem with the dual track system Congress
has created, but for at least a subset of cases,

29
defendants are abusing the process by doing
both. This is wasteful of judicial, executive,
and party resources, and it is just plain unfair.
Congress intended the IPR/CBM/reexam route
to be an alternative to district court litigation of
certain validity issues, not duplicative of them.
ePlus, 790 F.3d at 1315 (Moore, J., dissenting from denial
of reh’g en banc, joined by O’Malley, J., Reyna, J., and
Wallach, J.). This case exemplifies the same problems.
Unless the Court intervenes, ALE and others like
it in the future will be allowed to make contentions
otherwise precluded under the Restatement that a
post-judgment patent cancellation decision abates their
previously-adjudged Article III liability. The Federal
Circuit will continue to deviate from the otherwise wellsettled federal common law of preclusion that applies in
every other circuit. As numerous Judges of the Federal
Circuit recognize, the time has come to harmonize the
Federal Circuit with Supreme Court precedent and the
Restatement, unsplit the circuits, restore constitutional
validity to our system of parallel track patentability
litigation, and eliminate the waste and gamesmanship
that current precedent incentivizes.
V. This case presents an excellent vehicle.
1. The issue having percolated through numerous
Federal Circuit decisions in recent years, now is the
time and this is the case for this Court’s review. A recent
published analysis about the present case concludes that
“the frequency of inconsistent district court and PTAB
judgments [will] increase as the number of parallel

30
proceedings increases.” Robert M. Masters, Jonathan
R. DeFosse and Kevin A. Ryan, “Intellectual Property
Outlook: Cases and Trends to Follow in 2020—PART
3,” The National Law Review (March 5, 2020), available
at https://www.natlawreview.com/article/intellectualproperty-outlook-cases-and-trends-to-follow-2020-part-3
(last viewed March 7, 2020). This analysis also warns
that, absent this Court’s review, there will be increasing
Federal Circuit deployment of the rule and testing of its
limits: “We also expect to see litigants test the boundaries
of so-called Fresenius preclusion in 2020. On the patent
owner side, we expect calls for the Supreme Court to
intervene and hold that the PTAB cannot override prior
infringement and validity determinations rendered as
part of an Article III court proceeding.” Id. The authors
also wryly note the instability of legal rights under the
rule: “the result reached in Chrimar [III] seems to be
dependent on the wording of the order the Federal Circuit
issues in connection with its remand decisions.” Id.
Chrimar recognizes that the parties presented nearly
the same issue to this Court in the Fresenius (2014) case,
but that the Court denied certiorari. At that time, the issue
had not yet fully percolated within the Federal Circuit.
Even though Fresenius had earned strong dissents from
numerous Federal Circuit judges, it would not have been
clear at the time how far the Federal Circuit would go
with its errant doctrine. Now we know.
On the facts, Fresenius reflected a more “nonfinal”
situation than here. In Fresenius, the post-judgment
royalty rate had yet to be recalculated at the moment
when the agency canceled the patent. 721 F.3d at 1331.
Those alterations of an underlying infringement judgment

31
were arguably closer to appellate reopening of a whole
judgment on appeal, a scenario that retrospectively
negates finality under traditional principles. In addition,
the respondent in those cert proceedings argued against
the grant of certiorari because the rise of IPRs “renders
highly unlikely a repetition of this fact pattern or anything
resembling it.” Brief in Opposition in No. 13-1071, at
28-29. Time has proven that the respondent there was
simply wrong. As Chrimar III shows, the Federal Circuit
has named an entire legal principle after the Fresenius
legal rulings. The rise of IPRs has, in fact, multiplied the
quantity and types of cases that apply the legal principles
announced in Fresenius. The ePlus decision, also cited
supra, stands as another such example.
It is now clear that the Federal Circuit believes that
matters wholly settled in final, no-longer-appealable
judgments can be reopened by extraneous Executive
Branch actions. For the Federal Circuit, this can happen
even in cases where damages and ongoing royalty
calculations are long settled. This expansion of Fresenius
merits this Court’s review, even if the Fresenius case did
not.
2. The uncertainty about “finality” under the Federal
Circuit’s approach has given accused infringers an
incentive to engage in dilatory actions to keep otherwise
final judgments of an Article III court from becoming
“final” “in the hope that they will fare better with the
PTO and then be able to unravel the district court
judgment against them.” ePlus, 790 F.3d at 1314 (Moore,
J., dissenting from denial of en banc rehearing petition).
It has encouraged litigants to “scrap and fight” when they
should no longer do so, creating perverse and wasteful

32
litigation strategies. Id. This case illustrates that the
Federal Circuit lets final judgments become unwound
based on (i) a bright-line rule that there can be no final
judgment while a case remains pending, and (ii) a vague
corollary rule that a case remains pending until every
not “insubstantial” argument raised by a defendant with
respect to any question in the case has been fully litigated
through appeal.
By injecting such uncertainty into the framework
under which all federal litigation proceeds, the Federal
Circuit has all but destroyed the finality of those Article
III judgments and jury verdicts subject to its jurisdiction.
In so doing, it has unwittingly endorsed unnecessary
protraction of litigation and pervasive waste of judicial
resources. A patent is only as valuable as the ability to
enforce it. But under the Federal Circuit’s framework, one
can litigate a patent for years through multiple courts,
only to have those decisions and jury verdicts erased by
the Executive Branch. Uncertainty undermines confidence
in and stability of the patent system, and thus subverts
the legal structures that exist to encourage investment
in new technologies.

33
CONCLUSION
The petition for a writ of certiorari should be granted.
			Respectfully submitted,
Robert P. Greenspoon
Counsel of Record
Flachsbart & Greenspoon, LLC
333 North Michigan Avenue,
27th Floor
Chicago IL 60601
(312) 551-9500
rpg@fg-law.com
Counsel for Petitioners

APPENDIX

1a
APPENDIX A — Appendix
OPINIONAOF THE UNITED
STATES COURT OF APPEALS FOR THE
FEDERAL CIRCUIT, DATED
SEPTEMBER 19, 2019
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2018-2420
CHRIMAR SYSTEMS, INC., DBA CMS
TECHNOLOGIES, INC., CHRIMAR
HOLDING COMPANY, LLC,
Plaintiffs-Appellees
v.
ALE USA INC., FKA ALCATEL-LUCENT
ENTERPRISE USA, INC.,
Defendant-Appellant
Appeal from the United States District Court for
the Eastern District of Texas in No. 6:15-cv-00163-JDL,
Magistrate Judge John D. Love.
September 19, 2019, Filed
Before Taranto, Clevenger, and Hughes, Circuit
Judges.
Taranto, Circuit Judge.

2a
Appendix A
Chrimar Systems, Inc., owns four related patents,
U.S. Patent Nos. 8,155,012, 8,942,107, 8,902,760, and
9,019,838, that address the identification and tracking of
electronic equipment over an Ethernet network. In 2015,
Chrimar sued ALE USA Inc., alleging infringement of
those patents. After claim construction, ALE stipulated to
infringement of the asserted claims of all four patents but
pressed several defenses and counterclaims. A jury trial
returned a verdict in favor of Chrimar, and the district
court entered a judgment awarding Chrimar damages
and post-verdict ongoing royalties.
ALE appealed to this court. We affirmed on all issues
presented to us except for the construction of a claim term
in the ’012 patent, which we reversed, and we remanded for
further proceedings. Chrimar Holding Co., LLC v. ALE
USA Inc., 732 F. App’x 876 (Fed. Cir. 2018). We noted in
our opinion (as amended on June 1, 2018) that the Patent
Trial and Appeal Board of the Patent and Trademark
Office had recently issued final written decisions deeming
un-patentable all the claims at issue in this case, but we
did not address any issue that those decisions might raise.
Id. at 881 n.2.
On remand, both parties filed motions with the district
court in July 2018. ALE sought certain relief based on the
Board’s unpatentability decisions—which Chrimar was in
the process of appealing to this court. As relevant here,
ALE moved variously for a stay of the ongoing royalties,
for a stay of the proceedings as a whole, and for relief from
the judgment under Federal Rule of Civil Procedure 60(b)
(5). Chrimar, for its part, moved to dismiss the count of

3a
Appendix A
its complaint that alleged infringement of the ’012 patent
(which Chrimar had narrowed to claim 31 and possibly
also claims 35, 43, and 60), and it provided ALE a covenant
not to sue ALE on that patent. ALE opposed Chrimar’s
motion on the ground that ALE had an unadjudicated,
live counterclaim for noninfringement of the ’012 patent
because the covenant did not extend to ALE’s customers
and distributors.
In August 2018, the district court ruled as follows
on the motions presented. It dismissed Chrimar’s ’012infringement count, and it ruled that ALE no longer had
any counterclaim left, which, in any event, was mooted by
the covenant not to sue and could not be considered in light
of this court’s mandate. And the court concluded that, with
the ’012 patent out of the case, there was nothing left in
the case to stay, which, in any event, could not be done in
light of this court’s mandate. The court’s amended final
judgment included the continuing order to pay ongoing
royalties, but only on the three remaining patents (having
expiration dates in April 2019), not the ’012 patent (having
an expiration date in March 2020). We were informed at
oral argument that, pursuant to the parties’ agreement,
ALE has not paid any money under the judgment—neither
damages nor ongoing royalties nor any other amount.
ALE timely appealed to this court. In May 2019, after
briefing was complete, Chrimar moved to terminate the
appeal. It attached to the motion (a) a formal disclaimer
of claims 31, 35, 43, and 60 of the ’012 patent, dated May
12, 2019, and filed in the PTO under 35 U.S.C. § 253,
and (b) a new declaration from Chrimar’s president,

4a
Appendix A
dated May 14, 2019, that now included ALE’s suppliers,
customers, and distributors within the covenant not to
sue for infringement of the ’012 patent.
Meanwhile, Chrimar’s appeals of the Board’s decisions
proceeded. We heard those appeals the same day as we
heard ALE’s appeal in this case. In a separate order
issued today, we have affirmed the Board’s determination
of un-patentability of all the claims of the ’012, ’107, ’838,
and ’760 patents relevant to this case. Chrimar Systems,
Inc. v. Juniper Networks, Inc., Nos. 2018-1499, 2018-1500,
2018-1503, 2018-1984, 777 Fed. Appx. 518, 2019 U.S. App.
LEXIS 28106 (Fed. Cir. Sept. 19, 2019).
Our affirmance of the Board’s decisions of unpatentability of the patent claims at issue in the present case has
“an immediate issue-preclusive effect on any pending or
co-pending actions involving the patent[s].” XY, LLC v.
Trans Ova Genetics, 890 F.3d 1282, 1294 (Fed. Cir. 2018).
This is such a case under Fresenius USA, Inc. v. Baxter
Int’l, Inc., 721 F.3d 1330 (Fed. Cir. 2013), and related
cases. It does not involve the special circumstance of a
“fully satisfied and unappealable final judgment” like the
one in WesternGeco L.L.C. v. ION Geophysical Corp., 913
F.3d 1067, 1072 (Fed. Cir. 2019).
A case is “pending,” XY, LLC, 890 F.3d at 1294,
when it is not yet final in the sense that “the litigation [is]
entirely concluded so that [the] cause of action [against the
infringer] was merged into a final judgment . . . one that
ends the litigation on the merits and leaves nothing for the
court to do but execute the judgment,’’ Fresenius, 721 F.3d

5a
Appendix A
at 1341. Such finality generally does not exist when a direct
appeal is still pending. Mendenhall v. Barber-Greene Co.,
26 F.3d 1573, 1579-80 (Fed. Cir. 1994) (invalidity judgment
may be raised “at any stage of the affected proceedings”);
id. at 1583-84; see WesternGeco, 913 F.3d at 1070-72; Dow
Chemical Co. v. Nova Chemicals Corp. (Canada), 803 F.3d
620, 628 (Fed. Cir. 2015); ePlus, Inc. v. Lawson Software,
Inc., 789 F.3d 1349, 1358 (Fed. Cir. 2015); Fresenius, 721
F.3d at 1344, 1347.
A case is generally to be considered as a whole in
judging its pendency. In John Simmons Co. v. Grier
Bros. Co., 258 U.S. 82, 42 S. Ct. 196, 66 L. Ed. 475, 1923
Dec. Comm’r Pat. 669 (1922), the patent claims had been
held invalid in a completed appeal and the case had been
remanded only for proceedings on a separate, state-law
claim. While the state-law proceedings were pending, the
Supreme Court held the patent claims valid in another
case. The Court then ruled that this new holding had to
be applied to the first case, reviving the patent claims.
Id. at 88-91. Simmons involved applying a decision that
upheld validity to revive a patent claim that had been
adjudicated invalid in another, still-pending case. But
its understanding of the finality principle applies as well
in the more familiar situation presented in this case and
in the line of authorities cited above, where the issue is
application of a holding of invalidity (unpatentability)
to patent claims that had been upheld in another, stillpending case.
This case is still pending. And we cannot say that
its pendency rests on the assertion of only insubstantial

6a
Appendix A
arguments. We therefore have no occasion to address
questions that might arise about application of the
Fresenius/Simmons preclusion principle to a case that
has been kept alive only on insubstantial grounds.
ALE asked the district court to modify the ongoing
royalty portion of the judgment, at least by staying the
running of the obligation. A district court has authority and
discretion to modify continuing relief when circumstances
change. See System Federation No. 91, Ry. Employees’
Dept., AFL-CIO v. Wright, 364 U.S. 642, 646-47, 81 S.
Ct. 368, 5 L. Ed. 2d 349 (1961); ePlus, 789 F.3d at 1355
(“[A] continuing decree of injunction directed to events
to come is subject always to adaptation as events may
shape the need.”) (quoting United States v. Swift & Co.,
286 U.S. 106, 114-15, 52 S. Ct. 460, 76 L. Ed. 999 (1932)).
We have not been shown any authority declaring that,
if asked, a district court may not or should not at least
consider staying ongoing royalties in light of new Board
unpatentability decisions like the ones at issue here. ALE
could reasonably request this relief.
For similar reasons, ALE also could reasonably
request a stay of the case in light of the Board’s decisions.
As a general matter, a district court has a range of
discretion about whether to stay a case before it in light
of other proceedings that might simplify resolution of
the case. See, e.g., Murata Machinery USA v. Daifuku
Co., 830 F.3d 1357, 1361 (Fed. Cir. 2016); Landis v. North
American Co., 299 U.S. 248, 254-55, 57 S. Ct. 163, 81 L.
Ed. 153 (1936) (holding that a decision to stay proceedings
“calls for the exercise of judgment, which must weigh

7a
Appendix A
competing interests and maintain an even balance”). ALE
does not contend that the Board’s decisions themselves
have preclusive effect before judicial review has occurred
or the time for judicial review has run without a request for
judicial review. But it does contend that, even before that
time, the Board’s decisions should at least be considered
in an equitable determination whether to stay the case—
presumably along with other considerations, such as the
stage of the case and ALE’s own choices about where to
challenge the patent claims at issue. Without addressing
the ultimate merits of that contention, we conclude that, at
least under present case law, there is nothing insubstantial
about ALE’s argument for a stay of the case.
The district court denied the relief requested. It did
not, for example, terminate the royalties and leave Chrimar to recover damages for the period at issue through
a follow-on lawsuit if the patent claims survived judicial
review. ALE was reasonable in appealing the district
court’s denial of relief. It had a substantial argument that
the district court did not exercise available discretion
because, in denying the requested stay, it did not recognize
that it had discretion. In these circumstances, we do not
decide whether ALE would have had a reasonable basis to
appeal had the district court recognized its discretion and
exercised it upon consideration of relevant circumstances
and policies.
In addition, ALE had a substantial argument to
the district court that it still had a counterclaim for
nonin-fringement of the ’012 patent even if Chrimar’s
affirmative count asserting infringement of that patent

8a
Appendix A
was to be dismissed. The procedural history presented
to us provides a substantial basis for ALE’s contention
that it had not dropped or forfeited its counterclaim,
and the limited record presented to us provides a
substantial basis for uncertainty about whether no case
or controversy remained in light of the covenant not to sue
that Chrimar gave to ALE in the district court. Without
declaring ALE’s contention meritorious, we think that
ALE could reasonably press those contentions both in
the district court and on appeal. We note that only after
the briefing was complete on appeal did Chrimar take
additional steps—filing a statutory disclaimer and a
broader covenant not to sue—to strengthen its argument
that there was no longer a case or controversy over
infringement of the ’012 patent.
Finally, in all of the foregoing respects, we see nothing
insubstantial about ALE’s contention that our 2018
mandate did not foreclose the district court’s consideration
of the arguments ALE made. The Board’s unpatentability
decisions had not existed at the time of the rulings that
were challenged on appeal, and we were not asked to
rule on the effect of those intervening decisions. In these
circumstances, ALE had a substantial argument when
the case returned to the district court that any effect of
the Board’s decisions, in the respects ALE invoked them,
was for the district court to decide, with consideration of
the issue not foreclosed by our mandate. See Standard
Oil Co. of Cal. v. United States, 429 U.S. 17, 18-19, 97
S. Ct. 31, 50 L. Ed. 2d 21 (1976); Engel Industries, Inc.
v. Lockformer Co., 166 F.3d 1379, 1383 (Fed. Cir. 1999);
Prism Technologies LLC v. Sprint Spectrum L.P., 757 F.
App’x 980, 982-83 (Fed. Cir. 2019).

9a
Appendix A
We reiterate that we do not decide whether ALE is
correct on the merits of the just-discussed contentions.
We decide only that this case remains pending and that
its pending status is not the result of an abuse of the
judicial process in the form of presentation of insubstantial
arguments. As a result, the now-affirmed unpatentability
determinations by the Board as to all claims at issue must
be given effect in this case. Accordingly, the motion to
terminate the appeal is denied, the final judgment and
award of costs are vacated, and the case is remanded to
the district court for dismissal.
Each party shall bear its own costs.
VACATED & REMANDED FOR DISMISSAL

10a
B the united
Appendix B —Appendix
order of
states district court for the eastern
district of texas, tyler division,
filed september 7, 2018
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
TYLER DIVISION
CIVIL ACTION NO. 6:15-CV-00163-JDL
CHRIMAR SYSTEMS, INC.,
CHRIMAR HOLDING COMPANY, LLC,
Plaintiffs,
v.
ALCATEL-LUCENT ENTERPRISE USA INC.,
Defendant.
ORDER
Before the Court is Defendant ALE USA Inc.’s
(“ALE”) Renewed Motion to Stay and/or Sever Ongoing
Royalties Pending Resolution of the Invalidity of the
Asserted Patents pursuant to Rule 60(b)(5) of the Federal
Rules of Civil Procedure. (Doc. No. 482.) Plaintiffs
Chrimar Holding Company, LLC and Chrimar Systems,
Inc. (“Chrimar”) have filed a response. (Doc. No. 483.)
On August 24, 2018, the Court entered an Amended
Final Judgment in this matter pursuant to the Federal

11a
Appendix B
Circuit’s mandate after the Court denied ALE’s request
to sever and stay ongoing royalties. (Doc. Nos. 476, 480,
481.) ALE now renews its motion for the sole purpose of
foreclosing procedural arguments on appeal that ALE
failed to seek relief under Rule 60(b)(5) after entry of the
Amended Final Judgment, and incorporates by reference
its prior arguments. (Doc. No. 482.)
For the reasons previously stated, the Court DENIES
ALE’s Renewed Motion (Doc. No. 482).
So ORDERED and SIGNED this 7th day of
September, 2018.
/s/				
JOHN D. LOVE
UNITED STATES MAGISTRATE
JUDGE

12a
Appendix CFINAL JUDGMENT
APPENDIX C — AMENDED
OF THE UNITED STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF TEXAS, TYLER
DIVISION, DATED AUGUST 24, 2018
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
TYLER DIVISION
CIVIL ACTION NO. 6:15-CV-00163-JDL
CHRIMAR SYSTEMS, INC.,
CHRIMAR HOLDING COMPANY, LLC,
Plaintiffs,
v.
ALCATEL-LUCENT ENTERPRISE USA INC.,
Defendant.
AMENDED FINAL JUDGMENT
A jury trial regarding the claims of Plaintiffs
Chrimar Systems, Inc. and Chrimar Holding Company
(collectively, “Chrimar”) against Defendant ALE USA
Inc. (“ALE”), and regarding ALE’s legal defenses and
counterclaims, commenced on October 3, 2016. The jury
returned its unanimous verdict on October 7, 2016. (Doc.
No. 349). The Court ruled on the parties’ post-trial motions
and ultimately entered a final judgment in this matter in
accordance with the jury’s verdict. (Doc. No. 423). ALE and
Chrimar appealed certain issues to the Federal Circuit.

13a
Appendix C
The Federal Circuit rejected the claim construction of the
term “adapted” as set forth in claim 31 of the ’012 Patent
but otherwise affirmed the verdict in its entirety, including
the infringement damages award, the Court’s ruling on
fees, and the fraud judgment. (Doc. No. 463). The only
issue remanded to this Court was ALE’s liability as to
Claim 31 of the ’012 Patent based on a revised construction
of the claim term “adapted” found therein. Upon remand,
Chrimar moved to dismiss the ’012 Patent from this action
and provided ALE with a covenant not to sue on the ’012
Patent. (Doc. No. 469.) The Court subsequently granted
Chrimar’s Motion to Dismiss, which resolved the only
remaining issue. (Doc. No. 476.) The Court also denied
reconsideration of this ruling.
Based on the jury’s verdict, the entirety of the record
available to the Court, the Court’s rulings on the parties’
respective post-trial motions, and the Federal Circuit’s
opinion, the Court enters this Amended Final Judgment
fully and finally disposing of all claims by and between
Chrimar and ALE.
The Court ORDERS, ADJUDGES, DECREES, and
DECLARES as follows:
• ALE stipulated that the accused PoE Products
infringe the following claims, as construed by
the Court, based on Chrimar’s PoE Standards
compliance-based theory of infringement:
¡

claims 1, 5, 72, and 103 (across claims 1, 5, and
72) of U.S. Patent Number 8,942,107 (“the ’107
Patent”);

14a
Appendix C
¡

¡

claims 1, 59, 69, 72 (across claims 1, 59, and 69),
and 145 of U.S. Patent Number 8,902,760 (“the
’760 Patent”); and
claims 1, 7, and 26 of U.S. Patent Number
9,019,838 (“the ’838 Patent”).

• Consistent with the jury’s verdict, ALE did not meet
its burden of proof with respect to invalidity and
unenforceability for the following patent claims:
¡

¡

claims 1, 5, 72, and 103 (across claims 1, 5, and
72) of the ’107 Patent;
claims 1, 59, 69, 72 (across claims 1, 59, and 69),
and 145 the ’760 Patent;
and

¡

claims 1, 7, and 26 of the ’838 Patent.

• The Court awards actual damages to Chrimar for
ALE’s infringement of the ’107 Patent, the ’760
Patent, and the ’838 Patent in the amount of
$324,558.34 for damages as of September 30, 2016.
• Chrimar is f u rther awarded pre-judgment
interest on the actual damages found by the jury
($324.558.34), from the date of July 1, 2015 through
the day before entry of the Final Judgment (Doc.
No. 423), calculated at the prime rate, compounded
quarterly, in the amount of $18,918.98.

15a
Appendix C
• Chrimar is awarded post-judgment interest on the
actual damages, pre-judgment interest, and costs
awarded herein, at the rate of 0.83%, compounded
annually, as provided by 28 U.S.C. § 1961, from the
date of entry of the Final Judgment (Doc. No. 423)
through the date upon which Chrimar receives from
ALE full payment of the amounts ordered herein.
• The following terms have the following meanings:
¡

¡

¡

The term “PoE Standards” shall mean the
IEEE 802.3af standard, and any amendment to
that standard that uses the same detection or
classification protocols, and shall also specifically
include the IEEE 802.3at standard, and any
amendment to that standard that uses the same
detection or classification protocols;
The term “PoE PDs” shall mean Powered Devices
that implement the PoE Standard(s), including
PoE wireless access points, VoIP phones, and IP
cameras, and any other devices that are capable
of automatically receiving operational power over
an Ethernet network in compliance with the PoE
Standard(s);
The term “PoE PSEs” shall mean Power
Sourcing Equipment that implement the PoE
Standard(s), including PoE switches, routers,
hubs, and repeaters, and any other devices that
are capable of automatically providing operational
power over an Ethernet network in compliance
with the PoE Standards;

16a
Appendix C
¡

The term “PoE Products” shall mean PoE PDs
and PoE PSEs; and

• Chrimar is further awarded — for so long as ALE’s
infringement of the ’107 Patent, the ’760 Patent, and
the ’838 Patent continues — post-verdict ongoing
royalties in the amount of $1.2067 per Power over
Ethernet (“PoE”) port per PoE Product 1 sold
beginning on October 1, 2016, and continuing:
¡

¡

As to PDs, through April 8, 2019 (the date of the
expiration of the last to expire of the ’107 and ’760
patents); and
As to PoE PSEs, through April 8, 2019 (the date
of the expiration of the last to expire of the ’838
and ’760 patents).

• All relief not granted in this Final Judgment is
DENIED.
• All pending motions not previously resolved are
DENIED.
• Chrimar is the prevailing party, and as the
prevailing party, Chrimar shall recover its costs
from ALE in the amount of $100,020.58 (Doc. No.
442).

1. For avoidance of doubt, in no event will there be more than
one royalty assessed per PoE port.

17a
Appendix C
• This is a final judgment.
So ORDERED and SIGNED this 24th day of August,
2018.
/s/				
JOHN D. LOVE
UNITED STATES MAGISTRATE
JUDGE

18a
Appendix D —Appendix
ORDER D
of the UNITED
STATES DISTRICT COURT FOR THE EASTERN
DISTRICT OF TEXAS, TYLER DIVISION, FILED
AUGUST 24, 2018
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
TYLER DIVISION
CIVIL ACTION NO. 6:15-CV-00163-JDL
CHRIMAR SYSTEMS, INC., CHRIMAR HOLDING
COMPANY, LLC,
Plaintiffs,
v.
ALCATEL-LUCENT ENTERPRISE USA INC.,
Defendant.
ORDER
Before the Court is Defendant A lcatel-Lucent
Enterprise USA, Inc.’s (“ALE”) Motion to reconsider
the Court’s Order (Doc. No. 476) denying ALE’s Motion
to Stay (Doc. No. 470) and granting Plaintiffs’ Motion to
Dismiss (Doc. No. 469). Plaintiffs Chrimar Systems Inc.
and Chrimar Holdings Company, LLC (“Chrimar”) filed
a response (Doc. No. 479). For the reasons stated herein,
ALE’s Motion (Doc. No. 477) is DENIED.

19a
Appendix D
The Federal Rules of Civil Procedure do not
specifically provide for motions for reconsideration.
Shepherd v. Int’l Paper Co., 372 F.3d 326, 328 n.1 (5th
Cir. 2004). Motions to reconsider are considered rare
and filed only for the limited purpose: “to permit a party
to correct manifest errors of law or fact, or to present
newly discovered evidence.” Krim v. pcOrder.com, Inc.,
212 F.R.D. 329, 331 (W.D. Tex. 2002) (citations omitted).
Mere disagreement with an order of the Court does not
warrant reconsideration of that order. Id. at 332. A party
should not restate, recycle, or rehash arguments that were
previously made. Id.
Here, A LE arg ues that the Cour t’s Order is
“fundamentally unfair” and that it makes mistakes of
fact and law. (Doc. No. 477, at 4.) Specifically, ALE argues
that the Court improperly dismissed ALE’s counterclaims
and mischaracterized what those counterclaims were. Id.
While ALE contends that the Court made a manifest error
in these determinations perhaps to bolster its motion, these
arguments actually elucidate ALE’s mischaracterization
of the Court’s Order. As an initial matter, the Court did
not dismiss any counterclaims of ALE’s; rather, the Court
determined that “there are no counterclaims of ALE’s that
remain pending for the Court to adjudicate.” (Doc. No.
476, at 4.) This conclusion remains correct and unchanged
in view of the trial in this case and the Federal Circuit’s
mandate. Id. Further, perhaps prompted by the Court’s
order explaining that ALE had failed to explain any basis
for reviving a counterclaim, ALE now confuses what it
alleges is a counterclaim versus what was indisputably
presented as a defense to infringement at trial—namely

20a
Appendix D
the issues of derivation and improper inventorship. See
Doc. No. 476, citing Doc. No. 350 at 10–14 (identifying
invalidity as a defense to patent infringement with no
objection). Simply put, ALE did not present a counterclaim
of invalidity to the jury during the trial of this case. Thus,
there is no open issue with respect to any counterclaim
and such consideration would ultimately be inappropriate
in view of the Federal Circuit’s mandate. As to the Court’s
ruling on the motion to stay, ALE has not met the exacting
standards required for reconsideration. Indeed, ALE
raises the same arguments already considered by the
Court. (Doc. No. 477, at 10–11.) These rehashed arguments
do not form a basis for reconsideration of the Court’s
denial of a stay.
Having considered these arguments, the Court finds
that ALE does not establish that the Court committed any
manifest errors of law in its prior decision. The remainder
of ALE’s arguments were already raised and considered
by the Court. The Court finds no reason to reconsider
those arguments now. Accordingly, ALE’s Motion for
reconsideration (Doc. No. 477) is DENIED.
So ORDERED and SIGNED this 24th day of
August, 2018.
/s/							
JOHN D. LOVE
UNITED STATES MAGISTRATE JUDGE

21a
E the united
Appendix E —Appendix
ORDER of
states DISTRICT COURT FOR THE EASTERN
DISTRICT OF TEXAS, TYLER DIVISION,
FILED AUGUST 8, 2018
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
TYLER DIVISION
CIVIL ACTION NO. 6:15-CV-00163-JDL
CHRIMAR SYSTEMS, INC.,
CHRIMAR HOLDING COMPANY, LLC,
Plaintiffs,
v.
ALCATEL-LUCENT ENTERPRISE USA INC.,
Defendant.
ORDER
On October 3–7, 2016 the Court held a five-day jury
trial in this matter involving U.S. Patent Nos. 8,115,012
(“the ’012 Patent”), 8,902,760 (“the ’760 Patent”),
8,942,107 (“the ’107 Patent”), and 9,019,838 (“the ’838
Patent”) (collectively “the patents-in-suit”). Defendant
Alcatel-Lucent Enterprise USA Inc. (“ALE”) stipulated
to infringement of the patents-in-suit. The jury found
the asserted claims valid and awarded a lump sum of
$324,558.34. (Doc. No. 349.) The jury also found that
ALE did not prove its counterclaims by a preponderance

22a
Appendix E
of the evidence that Plaintiffs Chrimar Systems Inc. and
Chrimar Holding Company, LLC (“Chrimar”) committed
fraud against ALE or that Chrimar breached a contract
with the IEEE. Id. The Court ruled on the parties’ posttrial motions and ultimately entered a final judgment in
this matter in accordance with the jury’s verdict. (Doc.
Nos. 412, 413, 414, 423.) Of relevance, the Court awarded
actual damages to Chrimar for ALE’s infringement of
the ’012 Patent, the ’107 Patent, the ’760 Patent, and the
’838 Patent in the amount of $324,558.34 for damages as
of September 30, 2016, as well as pre-judgment and postjudgment interest. (Doc. No. 423.) The Court also issued
post-verdict ongoing royalties in the amount of $1.2067
per Power over the Ethernet (“PoE”) port beginning on
October 1, 2016 and continuing: (1) as to PoE Powered
Devices (“PDs”) that are not ’012 Patent Excluded PDs,
through March 4, 2020 (the date of the expiration of the
last to expire of the ’012, ’107, and ’760 Patents); (2) as to
’012 Patent Excluded PDs, through April 8, 2019 (the date
of the expiration of the last to expire of the ’107 and ’760
Patents); and (3) as to PoE Power Sourcing Equipment
(“PSEs”), through April 8, 2019 (the date of the expiration
of the last to expire of the ’838 and ’760 Patents). Id.
The Court’s final judgment was subsequently appealed
to the Federal Circuit. The Federal Circuit affirmed the
verdict in its entirety, but rejected the claim construction
of the term “adapted” as set forth in claim 31 of the ’012
Patent. (Doc. No. 463.) Specifically, the Federal Circuit
rejected the Court’s construction of the claim term
“adapted” as “designed, configured, or made” and adopted
ALE’s proposed construction that “adapted” means

23a
Appendix E
“modified.” Id. The remainder of the Court’s rulings were
affirmed, including the infringement damages award, the
Court’s ruling on fees, and the fraud judgment. Id. The
case was remanded for further proceedings consistent
with that opinion and the corresponding mandate
subsequently issued. (Doc. No. 465.)
On July 10, 2018, the Court held a status conference
to discuss how to proceed with the case on the sole issue
before the Court—liability as to claim 31 of the ’012 Patent
based upon the Federal Circuit’s modified construction
of the term “adapted” found therein. (Doc. No. 467.)1 At
that time, Chrimar offered to dismiss the ’012 Patent and
ALE raised, for the first time, an argument that it should
not have to pay any damages, including ongoing royalties,
because the patents-in-suit had since been found invalid
by the Patent Trial and Appeal Board (“PTAB”). The
Court ordered the parties to meet and confer and submit
subsequent briefing on these issues. (Doc. No. 468.)
In response, the Court first received Chrimar’s motion
to voluntarily dismiss Count I of the First Amended
Complaint related to infringement of the ’012 Patent.
(Doc. No. 469.) ALE opposed this motion. (Doc. No.
473.) From the Court’s perspective, Chrimar should be
allowed to dismiss Count I of its live complaint related
to infringement of the ’012 Patent. Elbaor v. Tripath
1. Because the other three patents-in-suit support the lump
sum damages award, which was affirmed, and do not contain the
term “adapted,” the only issue before the Court concerns liability
with respect to the ’012 Patent and the difference of 11 months of
ongoing royalties with respect to that patent.

24a
Appendix E
Imaging, Inc., 279 F.3d 314, 317 (5th Cir. 2002) (“As a
general rule, motions for voluntary dismissal should be
freely granted unless the non-moving party will suffer
some plain legal prejudice other than the mere prospect
of a second lawsuit.”). Rule 41(a)(2) provides that “an
action may be dismissed at the plaintiff’s request only
by court order, on terms that the court considers proper.
If a defendant has pleaded a counterclaim before being
served with the plaintiff’s motion to dismiss, the action
may be dismissed over the defendant’s objection only if
the counterclaim can remain pending for independent
adjudication.” Fed.R.Civ.P. 41(a)(2). Chrimar has agreed
to dismiss this claim with prejudice and provide ALE a
covenant not to sue. (Doc. No. 469.) ALE claims prejudice
because Chrimar has not agreed to a covenant not to sue
ALE’s customers and distributors and also contends that
the covenant does not divest the Court of jurisdiction over
ALE’s counterclaims. (Doc. No. 473, at 5.)
Here, Chrimar’s covenant not to sue and dismissal
with prejudice relieves any potential prejudice to ALE,
and ALE’s customers and distributors who are not
parties to this suit do not create a controversy or cause
prejudice to ALE such that the Court should not grant
Chrimar’s voluntary dismissal. Compare Plains Growers
By & Through Florists’ Mut. Ins. Co. v. Ickes-Braun
Glasshouses, Inc., 474 F.2d 250, 255 (5th Cir. 1973)
(finding that a third-party claim would not bar a voluntary
dismissal of plaintiff’s action.). Indeed, ALE can only cite
the mere speculation of future litigation against customers
and distributors on a patent that it acknowledges has been

25a
Appendix E
found invalid by the PTAB. 2 The speculation of bringing
a future suit on an invalid patent simply does not create
prejudice that would outweigh the interest in granting
Chrimar’s voluntary dismissal of that patent with a
covenant not to sue ALE.
Additionally, there are no counterclaims of ALE’s
that remain pending for the Court to adjudicate. Prior
to trial, ALE dropped all counterclaims but for its
counterclaims of fraud and breach of contract. ALE had
a full trial on those counterclaims and the judgment as to
those claims was affirmed by the Federal Circuit. Indeed,
those counterclaims of fraud and breach of contract were
not implicated by the single point of remand related to
the meaning of the term “adapted” in claim 31 of the
’012 Patent and ALE did not pursue a counterclaim of
invalidity as to claim 31 of the ’012 Patent at trial. See Doc.
No. 350 at 6–7, 20–21 (final jury instructions identifying
ALE’s only counterclaims for fraud and breach of contract
with no objection) and id. at 10–14 (identifying invalidity as
a defense to patent infringement with no objection). ALE
now provides a conclusory assertion that it has pending
counterclaims of non-infringement and invalidity with
respect to the ’012 Patent. (Doc. No. 473, at 12 n. 12.) Even
if the Federal Circuit’s remand somehow revived these
2. While ALE cites to the potential of continued suits based on
the Court’s decision related to a license agreement with Defendant
Accton, that decision was simply an interpretation of an already
existing license agreement that resulted from the settlement of
ongoing litigation. It does not support the potential of customers
being sued in the future on a patent that has since been held invalid
by the PTAB.

26a
Appendix E
claims, which it did not, the question of infringement is
of course mooted by Chrimar’s willingness to dismiss the
’012 Patent and provide ALE a covenant not to sue. As to
any invalidity counterclaim possibly being revived, the
question of invalidity was only raised as one of improper
inventorship, which did not implicate the meaning of the
term “adapted.” ALE has not now identified any prior art
or any defense that would merit reviving a counterclaim
of invalidity based on the Federal Circuit’s interpretation
of the term “adapted,” and indeed this burden rests with
ALE. See Dow Jones & Co. v. Ablaise Ltd., 606 F.3d 1338,
1345 (Fed. Cir. 2010) (“[s]ubject matter jurisdiction in a
declaratory judgment suit depends upon the existence
of a substantial controversy, between the parties having
adverse legal interests, of sufficient immediacy and reality
to warrant the issuance of a declaratory judgment, and
the plaintiff bears the burden of proving the existence of
such a controversy throughout the litigation.”) (internal
quotations omitted) citing MedImmune, Inc. v. Genentech,
Inc., 549 U.S. 118, 127 (2007).
Finally, a voluntary dismissal of that claim avoids the
expenditure of further Court and party resources in a
matter that has already seen a five-day trial, significant
post trial rulings by this Court, and an appeal resulting in
a full opinion. As noted above, the narrow issue remanded
to this Court was whether ALE infringes the ’012 Patent
based on a revised construction of a claim term. That
question implicates only 11 months of the ongoing royalty,
the remainder of the ongoing royalty is intact due to the
Federal Circuit’s affirmance of the judgment as to the
other patents-in-suit.

27a
Appendix E
For these reasons, Chrimar’s Motion to Dismiss
(Doc. No. 469) is GRANTED and Count I of the First
Amended Complaint for infringement of the ’012 Patent
is DISMISSED with PREJUDICE.
Having dismissed the ’012 Patent from this action
with prejudice, there is nothing left for the Court to
resolve. ALE has filed a motion to stay and/or sever the
ongoing royalties pending appeal of the PTAB’s decision
on invalidity (Doc. No. 470), but given that the sole basis
for this Court’s jurisdiction on remand has been resolved
via voluntary dismissal of the claim, there is nothing to
stay. Indeed, the ongoing royalties were affirmed by
the Federal Circuit with the Circuit Court’s express
knowledge that the PTAB had invalidated at the patentsin-suit. See Doc. No. 463, at 6 n. 1 (“The claims of the
’107, ’838, ’012, and ’760 patents to which ALE stipulated
infringement in this case were all determined to be
unpatentable by the Patent Trial and Appeal Board in four
final written decisions.”). Despite ALE’s awareness of the
PTAB’s decisions, to the Court’s knowledge, ALE never
raised the issue with the Federal Circuit that any ongoing
royalties should be stayed. Indeed, despite the Federal
Circuit’s express knowledge of these decisions, the case
was not remanded to this Court for a determination of
whether any of the affirmed ongoing royalties should
be stayed given the PTAB’s decisions. As discussed
above, this case was remanded for the sole purpose of
adjudicating Chrimar’s claim on the ’012 Patent with
a new construction of the term “adapted.” Because the
’012 Patent has been dismissed with prejudice, there is
nothing left for this Court to resolve. See Samsung Elecs.

28a
Appendix E
Co. v. Rambus, Inc., 523 F.3d 1374, 1380 (Fed. Cir. 2008)
(“[a]fter [declaratory plaintiff] offered the entire amount
of attorney fees in dispute, the case became moot…[t]he
district court had no case or controversy to continue to
consider.”) citing Chathas v. Local 134 IBEW, 233 F.3d
508, 512 (7th Cir. 2000) (“if the defendant has thus thrown
in the towel there is nothing left for the district court to
do except enter judgment…”). Thus, ALE’s Motion (Doc.
No. 470) is DENIED as moot.
Within 7 days of this Order the parties shall submit
an amended final judgment to the Court consistent with
this opinion and the mandate of the Federal Circuit.
So ORDERED and SIGNED this 8th day of August,
2018.
/s/John D. Love
John D. Love
UNITED STATES MAGISTRATE
JUDGE

29a
Appendix F — Appendix
opinionFof the UNITED
STATES COURT OF APPEALS FOR THE
FEDERAL CIRCUIT, DATED MAY 8, 2018
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
May 8, 2018, Decided
2017-1848, 2017-1911
CHRIMAR HOLDING COMPANY, LLC, CHRIMAR
SYSTEMS, INC., DBA CMS TECHNOLOGIES, INC.,
Plaintiffs-Cross-Appellants
v.
ALE USA INC., FKA ALCATEL-LUCENT
ENTERPRISE USA, INC.,
Defendant-Appellant
Judges: Before PROST, Chief Judge, WALLACH and
TARANTO, Circuit Judges.
Opinion
Taranto, Circuit Judge.
Chrimar Systems, Inc., filed a patent infringement
suit against ALE USA Inc. (formerly known as AlcatelLucent Enterprise USA Inc.). In response, ALE asserted

30a
Appendix F
numerous defenses and counterclaims, including a claim
of fraud under Texas law. As relevant here, a jury found
infringement by ALE and awarded damages to Chrimar,
and it rejected ALE’s fraud claim. The court entered
judgment in favor of Chrimar on those issues. The court
also denied Chrimar’s post-trial motion for attorney fees
under 35 U.S.C. § 285. Both parties appeal. We reject one
of the claim constructions adopted by the district court,
but we affirm the damages award, the judgment on ALE’s
fraud claim, and the denial of fees.
I
A
Chrimar owns four related patents—U.S. Patent
Nos. 8,155,012; 8,942,107; 8,902,760; and 9,019,838—
whose specifications are materially the same for present
purposes. We treat the ’012 patent’s specification as
representative. The specification describes the use of
devices that connect to a wired network, such as Ethernet,
and that manage or track remote electronic equipment,
such as a personal computer, on that network. ’012 patent,
col. 1, lines 23-26, 37-39. In the arrangement described,
such equipment, called an “asset,” has a tracking device,
called a “remote module,” attached internally or externally
to it. Id., col. 1, line 66 through col. 2, line 2. The asset can
be managed, tracked, or identified by using the remote
module to communicate a unique identification number,
port identification, or wall jack location to the network
monitoring equipment, or “central module.” Id., col. 3,
lines 22-27; see id., col. 8, line 58 through col. 9, line 23;

31a
Appendix F
see also id., col. 6, lines 48-67 & Fig. 4. Asset identification
may be done without using existing network bandwidth,
because the remote module can convey information about
the asset to the central module through the same wiring
or cables that convey the high-frequency data on the
network, without adversely affecting the high-frequency
data. See id., col. 3, lines 10-12; id., col. 11, line 64 through
col. 12, line 1 (“The system transmits a signal over
preexisting network wiring or cables without disturbing
network communications by coupling a signal that does
not have substantial frequency components within the
frequency band of network communications.”). And asset
identification does not require that the asset be powered
on. Id., col. 4, lines 65-67; id., col. 12, lines 48-50.
According to Chrimar, all four patents are standardessential patents in that they cover features required
by the Institute of Electrical and Electronics Engineers
(IEEE) Power over Ethernet (PoE) 802.3af standard
(ratified in 2003) and 802.3at amendments to the IEEE
PoE 802.3 standard (ratified in 2009). Those standards
address detection, classification, power-on, operating
power, and removal of power. Chrimar’s patents cover
the first three features (detection, classification, and
power-on).
A Power over Ethernet controller chip controls
the activities addressed in the standard relevant here.
Products with such a controller chip interact with other
products to enable the safe delivery of power from powersourcing equipment (e.g., switches) to powered devices
(e.g., wireless access points and voice over internet protocol

32a
Appendix F
(VoIP) phones). ALE sells VoIP phones, wireless access
points, and switches that implement the IEEE PoE
802.3af/at standard.
B
The IEEE ratified the PoE 802.3af standard in 2003.
That ratification followed a series of meetings convened
by the IEEE regarding adoption of the standard. John
Austermann, Chrimar’s Chief Executive Officer and
listed inventor on the patents, participated in several such
meetings in 2000.
Under the then-applicable bylaws of the IEEE
Standards Association Board (2000)—which have since
been changed—if the IEEE knew of an essential patent,
the IEEE could adopt a standard that includes the
known use of that patent or patent application “if there
is technical justification in the opinion of the standardsdeveloping committee and provided the IEEE receives
assurance from the patent holder that it will license
under reasonable terms and conditions for the purpose
of implementing the standard.” J.A. 10548. The bylaws
also stated that the letter of assurance “shall be provided
without coercion,” J.A. 10548; and the IEEE Standards
Association operations manual required that the working
group “shall request that known patent holders submit
statements” but that the working group refrain from
coercing the patent holders to do so, J.A. 6711. According
to Chrimar’s expert Clyde Camp, who served as Chair of
the IEEE Patent Committee, the IEEE’s patent policy at
the time was one of “request and encourage,” J.A. 6706,

33a
Appendix F
consisting of sending letters to owners of patents that
may be essential and requesting (without requiring) that
the patent owner return a “Letter of Assurance,” J.A.
6705-09; see also J.A. 6713-14 (IEEE 2002 statement
submitted to FTC: “Disclosure of patents is based on
the willingness of the individual participants to disclose
any known patents whose use would be required in the
practice of the standard.”). Mr. Camp also testified that
patent holders did not always provide a letter of assurance
in response to such requests. J.A. 6712.1
In October 2001, while the relevant IEEE component
was considering the adoption of the PoE 802.3af standard,
Chrimar expressed its belief to the IEEE that the
Chrimar-owned U.S. Patent No. 5,406,260—not asserted
in this case—was an essential patent for that standard.
Chrimar submitted a “letter of assurance” agreeing to
license the ‘260 patent upon request “to all applicants at
royalty rates that [Chrimar] deems reasonable in light of
the specific circumstances of this particular situation.”
J.A. 10559. The IEEE never requested, and Chrimar did
not submit, any similar letter regarding the four patents
asserted in this case.
C
In 2015, Chrimar sued ALE in the Eastern District
of Texas for direct and indirect infringement of the ’012,
’107, ’838, and ’760 patents under 35 U.S.C. §§ 271(a), (b).
1. In 2004, the IEEE changed its policy regarding the
submission of letters of assurance. See J.A. 6512-13, 6716-17, 6725-26.

34a
Appendix F
ALE asserted defenses of, inter alia, noninfringement,
invalidity (including anticipation, obviousness, lack of
enablement, lack of sufficient written description, and
lack of proper inventorship), unenforceability based on
unclean hands and inequitable conduct, prosecution laches,
equitable estoppel, waiver, and implied license. ALE also
asserted counterclaims of, inter alia, breach of contract
with the IEEE (with ALE as a third-party beneficiary),
fraud, and violation of section 2 of the Sherman Act, as well
as declaratory judgment counterclaims corresponding to
several of ALE’s affirmative defenses.
The court issued a claim construction order in late
March 2016. Chrimar Sys., Inc. v. Alcatel-Lucent USA,
Inc., No. 6:15-cv-163, 2016 U.S. Dist. LEXIS 40686, 2016
WL 1228767 (E.D. Tex. Mar. 28, 2016) (Claim Construction
Order I). Two weeks before trial, on September 20, 2016,
ALE stipulated to infringement of claims 1, 5, 72, and
103 of the ’107 patent and claims 1, 7, and 26 of the ’838
patent under the governing claim construction order;
and ALE requested further construction of the claim
terms “adapted” and “physically connect” in the asserted
claims of the ’012 and ’760 patents. A week later, the court
issued a second claim construction order construing those
terms. Chrimar Sys., Inc. v. Alcatel-Lucent USA, Inc.,
No. 6:15-cv-163, 2016 U.S. Dist. LEXIS 131816, 2016 WL
5393853 (E.D. Tex. Sept. 27, 2016) (Claim Construction
Order II). In light of that order, ALE, on September 30,
2016, stipulated to infringement of claims 31, 35, 43, and
60 of the ’012 patent and claims 1, 59, 69, 72, and 145 of
the ’760 patent. 2
2. The claims of the ’107, ’838, ’012, and ’760 patents to which
ALE stipulated infringement in this case were all determined to

35a
Appendix F
In late June 2016, ALE moved to strike the expert
report and exclude the testimony of Chrimar’s damages
expert, Robert Mills, arguing that, in his damages
calculation, he did not properly limit compensation to the
value of the patented features of ALE’s products, i.e.,
he did not adequately separate the value of the patented
features from the value of nonpatented features and the
value associated with the IEEE standardization. In August
2016, the court granted the motion only in part. The court
concluded that, for admissibility, Mr. Mills had adequately
separated patented from nonpatented features. But the
court concluded that Mr. Mills improperly stated in his
report that there was no need even to assess the value of
standardization because, when the IEEE standard was
adopted, there were no noninfringing alternatives to the
features at issue; the court struck that statement. Mr.
Mills then submitted a supplemental report, as authorized,
addressing the value of standardization. When ALE again
moved to strike and exclude, the court again granted
ALE’s motion only in part, striking from the supplemental
report one sentence about the lack of noninfringing
alternatives at the time the standard was adopted.
be unpatentable by the Patent Trial and Appeal Board in four final
written decisions. Appeals from the final written decisions for the
first three patents have been filed with this court. Notice of Appeal,
Chrimar Sys., Inc. v. Juniper Networks, Inc., No. 18-1499 (Fed. Cir.
Feb. 1, 2018), ECF No. 1; Notice of Appeal, Chrimar Sys., Inc. v.
Juniper Networks, Inc., No. 18-1500 (Fed. Cir. Feb. 1, 2018), ECF
No. 1; Notice of Appeal, Chrimar Sys., Inc. v. Juniper Networks,
Inc., No. 18-1503 (Fed. Cir. Feb. 1, 2018), ECF No. 1. ALE has not
yet appealed the final written decision regarding the ’760 patent,
entered by the Board on April 26, 2018.

36a
Appendix F
A jury trial was held in early October 2016. ALE
dropped many of its defenses and counterclaims shortly
before or during trial and, as mentioned previously,
stipulated to infringement under the governing claim
constructions shortly before trial. The issues submitted
to the jury were infringement damages, invalidity based
on improper inventorship, fraud, and breach of contract.
On October 7, 2016, the jury returned a verdict in favor of
Chrimar on all issues and awarded Chrimar a royalty of
$324,558.34. The defenses of equitable estoppel, waiver,
prosecution laches, and inequitable conduct were left to
the court, which ruled for Chrimar on all issues.
After the jury trial, Chrimar filed a motion for
attorney fees under 35 U.S.C. § 285, and ALE moved
for judgment as a matter of law or a new trial. The court
denied both motions. Chrimar Sys., Inc. v. Alcatel-Lucent
Enter. USA Inc., No. 6:15- cv-163, 2017 U.S. Dist. LEXIS
19587, 2017 WL 568712 (E.D. Tex. Feb. 13, 2017) (JMOL
Order); Mem. Op. & Order, Chrimar Sys., Inc. v. AlcatelLucent Enter. USA Inc., No. 6:15-cv-163, 2017 U.S. Dist.
LEXIS 220804 (E.D. Tex. Jan. 23, 2017), ECF No. 412
(Fees Order), J.A. 20001-05. On February 27, 2017, the
court entered final judgment.
ALE timely appealed. Chrimar timely cross-appealed.
We have jurisdiction under 28 U.S.C. § 1295(a)(1).
II
ALE appeals three of the district court’s claim
constructions, the denial of its motion to exclude Mr.

37a
Appendix F
Mills’s damages testimony, and the jury instruction on
ALE’s state-law fraud claim.
A
We review de novo a district court’s claim construction,
while reviewing for clear error any underlying factual
findings. Teva Pharms. USA, Inc. v. Sandoz, Inc., 135 S.
Ct. 831, 840-42, 190 L. Ed. 2d 719 (2015). ALE challenges
the district court’s construction of (1) “adapted,” as used
in the relevant claims of the ’012 patent; (2) a series of
infinitive phrases in the relevant claims of the ’107, ’760,
and ’838 patents; and (3) “physically connect,” as used in
the relevant claims of the ’760 patent. We agree on the
first issue, not the others.
1
ALE objects to the court’s construction of “adapted”
in claim 31 of the ’012 patent (on which claims 35, 43, and
60 directly or indirectly depend). That claim reads:
31. An adapted piece of Ethernet data terminal
equipment comprising:
an Ethernet connector comprising a plurality
of contacts; and
at least one path coupled across selected
contacts, the selected contacts comprising at
least one of the plurality of contacts of the
Ethernet connector and at least another one

38a
Appendix F
of the plurality of contacts of the Ethernet
connector,
wherein distinguishing information about the
piece of Ethernet data terminal equipment is
associated to impedance within the at least one
path.
’012 patent, col. 18, line 62 through col. 19, line 5 (emphasis
added).
In this case, the district court, at the parties’ request,
adopted the construction of “[a]n adapted piece of
Ethernet data terminal equipment” from an earlier case
in which the same court construed the preamble in claim
31 of the ’012 patent. See Claim Construction Order II,
2016 U.S. Dist. LEXIS 131816, 2016 WL 5393853, at *1,
*3 (referring to ChriMar Sys., Inc. v. Alcatel-Lucent,
Inc., No. 6:13-cv-880, 2015 U.S. Dist. LEXIS 1801, 2015
WL 233433, at *7-9 (E.D. Tex. Jan. 8, 2015) (6:13-cv-880
Claim Construction Order)). In the claim construction
order entered in the earlier case, the court construed
the preamble as “limiting” and stated that its “plain and
ordinary meaning” should govern its scope, a construction
with which both parties to that case agreed. 3 6:13-cv-880
Claim Construction Order, 2015 U.S. Dist. LEXIS 1801,
3. That case, filed in 2013, involved Chrimar and Alcatel-Lucent.
(The present case involves Chrimar and ALE USA Inc., which was
spun off from Alcatel-Lucent in 2014.) With the parties’ agreement,
the 2013 case was dismissed without prejudice in June 2015. Chrimar
Sys., Inc. v. Alcatel-Lucent, Inc., No. 6:13-cv-880, 2015 U.S. Dist.
LEXIS 1801 (E.D. Tex. Jan. 8, 2015), ECF No. 140.

39a
Appendix F
2015 WL 233433, at *9. While acknowledging that the
parties continued to dispute the meaning of the term
“adapt,” id., the court in that order reasoned:
The “adapting” requirement in the claims
of the ’012 Patent is essential to address the
problem confronted by the inventors taking
existing networks and adapting them to make
equipment distinguishable. Thus, the word
“adapting” must have some meaning.
Id. The court did not say more about what that “meaning”
is. See id.
Two weeks before trial in the present case, ALE asked
for further claim construction of the term “adapted.”
Claim Construction Order II, 2016 U.S. Dist. LEXIS
131816, 2016 WL 5393853, at *1. According to ALE, the
term should be construed as a “modification of preexisting
equipment.” See 2016 U.S. Dist. LEXIS 131816, [WL] at
*3. The court disagreed with that narrowing construction.
2016 U.S. Dist. LEXIS 131816, [WL] at *4. Instead, the
court construed the term “consistently with its plain
and ordinary meaning to mean ‘designed, configured, or
made.’” 2016 U.S. Dist. LEXIS 131816, [WL] at *3-4.
In light of the parties’ agreement in this case that the
preamble is limiting, both before the district court and on
appeal, see ALE Br. 12; Chrimar Br. 18 n.5, we disagree
with the district court’s claim construction. Generally,
every apparatus may be described as “designed,
configured, or made,” and Chrimar has not explained

40a
Appendix F
how that construction in any way limits the scope of
claim 31. Chrimar also contends that “piece of Ethernet
data terminal equipment,” rather than “adapted,” is the
limiting term in the preamble, but it does not explain how
the former is limiting. Chrimar Br. 20-21. The district
court did not adopt that position. See Claim Construction
Order II, 2016 U.S. Dist. LEXIS 131816, 2016 WL
5393853, at *3-4; see also 6:13-cv-880 Claim Construction
Order, 2015 U.S. Dist. LEXIS 1801, 2015 WL 233433, at
*9 (assuming that “the word ‘adapting’ must have some
meaning”).
The specification is consistent with giving “adapted”
a meaning tied to existing equipment to avoid stripping
the concededly limiting claim language of meaning. The
specification describes the invention generally as designed
to operate on a preexisting network connected to pieces
of networked terminal equipment. See ’012 patent, col.
3, lines 18-22 (“In accordance with the teachings of the
present invention, a communication system is provided
for generating and monitoring data over a pre-existing
wiring or cables that connect pieces of networked
computer equipment to a network.”); id., col. 1, line
67 through col. 2, line 2 (“[A] method for permanently
identifying an asset by attaching an external or internal
device to the asset and communicating with that device
using existing network wiring or cabling is desirable.”).
As the district court noted, moreover, the specification
states that “[t]his invention is particularly adapted to be
used with an existing Ethernet communications link or
equivalents thereof,” ’012 patent, col. 3, lines 35-37, and
that “[t]he communication system 15 and 16 described

41a
Appendix F
herein is particularly adapted to be easily implemented
in conjunction with an existing computer network 17 while
realizing minimal interference to the computer network,”
id., col. 4, lines 56-60. Claim Construction Order II, 2016
U.S. Dist. LEXIS 131816, 2016 WL 5393853, at *3; see
also 6:13-cv-880 Claim Construction Order, 2015 U.S.
Dist. LEXIS 1801, 2015 WL 233433, at *9 (stating that
“[t]he ‘adapting’ requirement in the claims of the ’012
Patent is essential to address the problem confronted by
the inventors taking existing networks and adapting them
to make equipment distinguishable” and therefore “must
have some meaning”).
Chrimar does not dispute that the specification
describes embodiments that require modification of a
preexisting piece of Ethernet data terminal equipment.
Nor does it dispute that “adapted” appears only in the
claims of the ’012 patent, not the other patents involving
essentially the same specification, suggesting that the
claim scope chosen for the asserted claims in this patent
is only a subset of what the specification may support.4 It
is hardly unknown for one set of claims to use language
that picks out one among several embodiments, especially
4. The district court noted that the patent describes at least
one embodiment in which the invention is implemented at the
manufacturing stage, rather than through a modification of alreadymanufactured equipment. Claim Construction Order II, 2016 U.S.
Dist. LEXIS 131816, 2016 WL 5393853, at *4 (citing ’012 patent,
col. 11, lines 16-19 (“It is also envisioned that the electronics of the
network identification circuitry can be placed on a motherboard
within the computer or as part of the circuitry on the NIC [network
interface controller] card.”)).

42a
Appendix F
where other claims (perhaps in the same or related patents)
claim more broadly or focus on other embodiments. E.g.,
Advanced Cardiovascular Sys. v. Medtronic, Inc., 265
F.3d 1294, 1305-06 (Fed. Cir. 2001) (refusing to apply
limitations expressed in prosecution histories of related
patents where relevant claim term was not included
in claims of the asserted patent and “[t]he patentee’s
whole point in filing the application that resulted in
the [asserted patent] was to secure broader claims”);
see also, e.g., Haemonetics Corp. v. Baxter Healthcare
Corp., 607 F.3d 776, 782 (Fed. Cir. 2010) (construing term
“centrifugal unit” differently in two separate claims in
the same patent where language in each claim tracked
different embodiments described in the specification).
The claim language here, to be meaningful, requires such
a construction of “adapted.” We therefore adopt ALE’s
proposed construction of “adapted” to mean “modified.”
2
ALE also objects to the constructions of the infinitive
phrases “to detect,” “to control,” “to provide,” and “to
distinguish” in the relevant claims of the ’838 patent;
“to draw,” “to result,” and “to convey” in the relevant
claims of the ’107 patent; and “to draw,” “to detect,” “to
control,” and “to distinguish” in the relevant claims of the
’760 patent. E.g., ’838 patent, col. 17, lines 17, 19-20; ’107
patent, col. 17, lines 18, 20, 23; ’760 patent, col. 17, lines
28, 33-35. ALE argues that those terms should have been
construed as means-plus-function elements subject to
35 U.S.C. § 112, ¶ 6 because they do not recite sufficient

43a
Appendix F
structure to perform the required function. 5 The district
court rejected that argument. So do we.
The district court properly recognized the presumption
against application of § 112, ¶ 6 where, as here, the word
“means” is not used in the claim and properly asked
whether the terms preceding the infinitive phrases—
”central piece of equipment,” “Ethernet terminal
equipment” (or “BaseT Ethernet terminal equipment”),
and “end device”—identify structures or instead are, like
“means,” essentially place-holder nonce words. Claim
Construction Order I, 2016 U.S. Dist. LEXIS 40686,
2016 WL 1228767, at *5; see Williamson v. Citrix Online,
LLC, 792 F.3d 1339, 1349 (Fed. Cir. 2015) (en banc) (For
functional terms lacking the word “means,” the challenger
arguing for the application of § 112, ¶ 6 must satisfy “[t]he
standard[, which] is whether the words of the claim are
understood by persons of ordinary skill in the art to have
a sufficiently definite meaning as the name for structure.”).
ALE did not dispute before the district court, and has
not disputed on appeal, that those terms refer to known
structures in the art. Claim Construction Order I, 2016
U.S. Dist. LEXIS 40686, 2016 WL 1228767, at *5-6; see
also 2016 U.S. Dist. LEXIS 40686, [WL] at *5 n.2 (noting
that ALE’s “expert repeatedly discusses the ‘Ethernet
terminal equipment’ and ‘end device’ interchangeably
and without any question as to the understanding of these
5. Paragraph 6 of 35 U.S.C. § 112 was replaced with 35 U.S.C.
§ 112(f) when the Leahy-Smith America Invents Act (AIA), Pub. L.
No. 112-29, 125 Stat. 284 (2011), took effect on September 16, 2012.
Because the applications resulting in the asserted patents were filed
before that date, we refer to the pre-AIA version of § 112.

44a
Appendix F
terms in the art”). ALE therefore has not met its burden
to overcome the presumption against applying § 112, ¶ 6
for those infinitives. A claim term that has an understood
meaning in the art as reciting structure is not a nonce
word triggering § 112, ¶ 6. Williamson, 792 F.3d at 1349;
see, e.g., Skky, Inc. v. MindGeek, s.a.r.l., 859 F.3d 1014,
1019-20 (Fed. Cir. 2017) (even including use of the word
“means,” “wireless device means” was not a means-plusfunction term because “’wireless device’ is used in common
parlance . . . to designate structure”) (ellipsis in original).
3
ALE argues that the district court erred in construing
“physically connect”—as used in claim 1 of the ’760 patent
(on which claims 59, 69, and 72 depend) and claim 73 of the
’760 patent (on which claim 145 depends). Claim 1 reads:
1. A BaseT Ethernet system comprising:
a piece of central BaseT Ethernet equipment;
a piece of BaseT Ethernet terminal equipment;
and
data signaling pairs of conductors comprising
first and second pairs used to carry BaseT
Ethernet communication signals between the
piece of central Ethernet BaseT Ethernet
equipment and the piece of BaseT Ethernet
terminal equipment, the first and second pairs
physically connect between the piece of BaseT

45a
Appendix F
Ethernet terminal equipment and the piece
of central BaseT Ethernet equipment having
at least one DC supply, the piece of BaseT
Ethernet terminal equipment having at least
one path to draw different magnitudes of
current flow from the at least one DC supply
through a loop formed over at least one of
the conductors of the first pair and at least
one of the conductors of the second pair, the
piece of central BaseT Ethernet equipment to
detect at least two different magnitudes of the
current flow through the loop and to control the
application of at least one electrical condition to
at least two of the conductors.
’760 patent, col. 17, lines 15-36 (emphasis added).
The district court considered dependent claim 71
(not asserted in this case), in which the only additional
limitation is that “the first and second pairs are physically
connected between the piece of BaseT Ethernet terminal
equipment and the piece of central BaseT Ethernet
equipment.” Id., col. 21, lines 28-30 (emphasis added). In
light of that dependent claim and the presumption of claim
differentiation, the court stated that the term “physically
connect” in claim 1 requires only that the components
be configured (have the ability) to physically connect,
rather than actually be physically connected (as in claim
71). Claim Construction Order II, 2016 U.S. Dist. LEXIS
131816, 2016 WL 5393853, at *4-5.
On appeal, ALE argues that the district court’s
construction renders the term “physically connect”

46a
Appendix F
meaningless and that, w ithout an actual physical
connection, the system would be inoperable. But requiring
that a system be configured to physically connect is a
meaningful limitation (it imports a meaningful capability),
and such a system is operable (upon action by a user, the
system makes the physical connection needed for actual
operation). Not surprisingly, it is hardly uncommon for
an apparatus or system claim, as a claim to a product
rather than a process (or a forbidden mix), to be directed
to capability, instead of actual operation. Finjan, Inc.
v. Secure Computing Corp., 626 F.3d 1197, 1204 (Fed.
Cir. 2010) (“[W]e have held that, to infringe a claim that
recites capability and not actual operation, an accused
device need only be capable of operating in the described
mode.” (citation and quotation marks omitted)); see, e.g.,
Ericsson, Inc. v. D-Link Sys., Inc., 773 F.3d 1201, 1217
(Fed. Cir. 2014) (affirming infringement verdict based
on claims directed to components “reasonably capable
of ‘arranging information for transmission . . . which
identifies a type of payload information’” (quoting U.S.
Patent No. 6,466,568, col. 13, lines 12-18)); Finjan, 626
F.3d at 1204-05 (affirming infringement verdict for “nonmethod claims describ[ing] capabilities without requiring
that any software components be ‘active’ or ‘enabled’”
because “software for performing the claimed functions
existed in the products when sold—in the same way that
an automobile engine for propulsion exists in a car even
when the car is turned off”). Chrimar cites no authority
barring a claim to a component “configured to” work and
capable of operation by a user, where the user’s actual
operation is unclaimed. See Versata Software, Inc. v.
SAP Am., Inc., 717 F.3d 1255, 1262-63 (Fed. Cir. 2013)

47a
Appendix F
(affirming infringement verdict based on evidence that
the system would operate in an infringing manner if a
user followed the accused infringer’s instructions, and
explaining that “[w]hile a device does not infringe simply
because it is possible to alter it in a way that would satisfy
all the limitations of a patent claim, . . . an accused product
may be found to infringe if it is reasonably capable of
satisfying the claim limitation” (citation and quotation
marks omitted)). Thus, ALE has not provided any
reason that overcomes the presumption in favor of claim
differentiation. See Phillips v. AWH Corp., 415 F.3d 1303,
1315 (Fed. Cir. 2005) (en banc).
4
We affirm the judgment of infringement of the ’107,
’838, and ’760 patents. Because we agree with ALE as
to the term “adapted” in the ’012 patent, we vacate the
district court’s claim construction order as to that term.
We remand for further proceedings on infringement of the
’012 patent under the proper construction of “adapted.”
That result does not call for a new trial on damages.
ALE did not ask for a new trial on damages based on our
adoption of its construction of “adapted.” See ALE Br. 21
(requesting only reversal of the infringement judgment);
ALE Reply Br. 11 (requesting that the court either
“reverse or vacate the infringement judgment . . . so that
the fact finder may assess whether the accused products
infringe the asserted claims of the ’012 patent under a
proper construction”). And a new trial on damages is
not warranted on that basis. Chrimar’s technical expert

48a
Appendix F
Dr. Vijay Madisetti testified that all four patents “cover
the PSE [power sourcing equipment] and the PD [power
device] aspects of classification, detection, and controlling
the power,” J.A. 5892—a proposition that ALE agrees
with on appeal, ALE Br. 8. Dr. Madisetti also testified that
the smallest saleable patent-practicing units are ALE’s
power sourcing equipment, which infringe the ’760 and
’838 patents, and ALE’s power devices, which infringe
the ’012, ’107, and ’760 patents, J.A. 5921—a proposition
ALE does not dispute on appeal. Given the (affirmed)
judgment of infringement of the ’107 and ’760 patents,
the absence of an infringement judgment on the ’012
patent is immaterial to damages because any damages
that would result from the alleged infringement of the
’012 patent also results from the infringement of the ’107
and ’760 patents. We therefore proceed to consider ALE’s
independent arguments directed to damages.
B
ALE challenges the damages award by attacking
the testimony of Mr. Mills, Chrimar’s damages expert.
According to ALE, Mr. Mills, in calculating a reasonable
royalty, (1) relied on licenses not comparable to the
hypothetical negotiation for the present case; (2) did not
adequately separate the value of patented features from
the value of standardization and the value of nonpatented
features; and (3) prejudicially referred to ALE’s total net
revenue and profit. The challenge is most naturally viewed
as a challenge to the admission of Mr. Mills’s testimony,
reviewable for abuse of discretion. See Gen. Elec. Co. v.
Joiner, 522 U.S. 136, 138-39, 118 S. Ct. 512, 139 L. Ed.

49a
Appendix F
2d 508 (1997); Versata, 717 F.3d at 1261 (applying Fifth
Circuit law); Snap-Drape, Inc. v. Commissioner, 98 F.3d
194, 197 (5th Cir. 1996). Our conclusion would not change
even if we viewed ALE’s argument as challenging the
denial of judgment as a matter of law, reviewed de novo
for compliance with the deferential standard for such
challenges to jury verdicts, see Mirror Worlds, LLC
v. Apple Inc., 692 F.3d 1351, 1356-57 (Fed. Cir. 2012)
(applying Fifth Circuit law), or the denial of a new trial,
reviewed for an abuse of discretion, see LaserDynamics,
Inc. v. Quanta Computer, Inc., 694 F.3d 51, 66 (Fed. Cir.
2012) (applying Fifth Circuit law).
1
There is no reversible error based on Mr. Mills’s
reliance on certain licenses to come to a range for a
reasonable royalty rate and his selection of a rate in the
low end of that range—i.e., $2.50 per PoE port. See J.A.
6223-28 (Mills’s trial testimony); see also J.A. 6164-89
(testimony of Chrimar CEO Austermann going through
30 licenses). To the extent that ALE argues that those
licenses were not sufficiently comparable to be reliable
indicators of what would have occurred in a hypothetical
negotiation between it and Chrimar, ALE failed to
make that challenge when seeking to exclude Mr. Mills’s
testimony or when that testimony was presented at trial.
See JMOL Order, 2017 U.S. Dist. LEXIS 19587, 2017 WL
568712, at *6 & n.7. In addition, ALE was able to—and
did—attack any discrepancies in the license-comparison
approach by presenting extensive contrary testimony
from its expert. J.A. 6807-27. This court has approved

50a
Appendix F
reliance on licenses, which often will not be in identical
circumstances, as long as reasonable adjustments for
differences in contexts are made. See, e.g., Prism Techs.
LLC v. Sprint Spectrum L.P., 849 F.3d 1360, 1368-70 (Fed.
Cir. 2017) (citing cases). ALE has not persuasively shown
either an unreasonable methodology or prejudicial error
under that standard.
2
Nor has ALE shown reversible error regarding Mr.
Mills’s testimony as to apportionment—separating the
patented features’ value from other elements of value in
the accused products. Mr. Mills explained at trial that
he accounted for the products’ non-PoE functionality
(nonpatented functionality outside the PoE standard), the
products’ nonpatented PoE functionality (two nonpatented
features of the PoE standard: operating power and removal
of power), and the value of standardization (generally
requiring practice of a standard-essential patent rather
than noninfringing alternatives). J.A. 6239. For the first,
he calculated the “profit premium” of the PoE functionality,
comparing ALE’s products that differ only in the addition
of that functionality. See J.A. 6240-42. In apportioning the
value of that profit premium to each of the nonpatented and
patented features of the PoE standard, Mr. Mills relied on
the testimony of the technical expert, Dr. Madisetti, who
stated that the patents “are fundamental to the provision
of PoE under the standards” and “relate to the majority
and the most critical aspects of the standard”; that “the
standards would not be successful without Chrimar’s
inventions”; and that “the standards would not have

51a
Appendix F
gained widespread adoption without Chrimar’s patented
inventions.” J.A. 6243-44; see also J.A. 4642-43 (Mills
expert report relying on Dr. Madisetti’s explanation); J.A.
5878, 5887-88, 5892 (Madisetti testimony). Mr. Mills also
testified that, although there was some value attributable
to the nonpatented features of the PoE standard and to
standardization, he adopted a conservative estimate of the
profit premium attributable to the patented features ($2.50
per PoE port), which did not include those values. J.A.
6244-45 (relying on Dr. Madisetti’s testimony regarding
the value of standardization and the nonpatented features
of the PoE standard, and stating that the testimony
“ultimately tells me that $2.50 per port is inherently
reasonable”).
Mr. Mills’s opinion that his conservative estimate of the
portion of the profit premium attributable to the patented
features did not encompass the value of standardization
and nonpatented features does not flunk standards of
reliability and reasonableness. See Aqua Shield v. Inter
Pool Cover Team, 774 F.3d 766, 771 (Fed. Cir. 2014) (noting
that royalty calculations often involve “approximation
and uncertainty”); VirnetX, Inc. v. Cisco Sys., Inc., 767
F.3d 1308, 1328 (Fed. Cir. 2014) (stating that “absolute
precision” is not required in the task of apportionment,
as “it is well-understood that this process may involve
some degree of approximation and uncertainty”). Nor is
unreliability or unreasonableness established by the fact
that Mr. Mills’s proposed royalty rate did not change in
his supplemental report, after he was directed to take into
account the value of noninfringing alternatives. Mr. Mills
assumed, based on Dr. Madisetti’s testimony, that the

52a
Appendix F
value of nonpatented features of the PoE standard and the
value of standardization were not large, and he selected
a figure toward the low end of the range of royalty rates
from comparable licenses, see J.A. 6223-28, including a
license that covered comparable technology and in which
ALE was the licensee, J.A. 6227-28, to reach a royalty rate
for the patented features. In light of those assumptions and
his initially conservative estimate, the unchanged royalty
rate does not prove his method unreliable or unreasonable.
Mr. Mills’s assumptions underlying his damages
theory were the subject of cross-examination. ALE used
that process to suggest that he had neither adequately
appreciated the value of nonpatented features and
standardization nor quantified such value. See, e.g.,
J.A. 6273-84. ALE also provided contrary testimony
from its own expert about the value of standardization
and noninfringing alternatives available at the time
the standard was adopted (leading to ALE’s proposed
royalty rate of $0.05 per PoE port). J.A. 6824-27. The
jury was given instructions regarding apportionment (not
challenged here), including a specific instruction regarding
the need to factor out the value of standardization and of
nonpatented features. J.A. 349-50. ALE has not shown
reversible error in leaving the damages dispute in this
case to that process.
3
ALE’s final challenge regarding damages is that the
district court improperly allowed Mr. Mills to refer to
ALE’s total revenue and profit, a reference that, according

53a
Appendix F
to ALE, “skewed” the damages inquiry. ALE Br. 62. The
district court, however, allowed that testimony only after
concluding that ALE had opened the door to it by soliciting
testimony from its own witness that relied on ALE’s net
revenue to estimate the very large amount that would
go to Chrimar at ALE’s proposed rate of $0.05 per PoE
port. J.A. 6316-18. We have no basis for disturbing the
district court’s determination that ALE opened the door
and that the now-challenged reference was accordingly
permissible. See United States v. Keith, 582 F. App’x 300,
302 (5th Cir. 2014) (no abuse of discretion in “allow[ing]
the government to elaborate more fully on th[e] line of
questioning” opened by the defendant) (citing United
States v. Walker, 613 F.2d 1349, 1353 (5th Cir. 1980)).
C
ALE challenges the district court’s instruction to the
jury on the law of fraud under Texas law. “[W]e review the
district court’s determination of state law de novo, though
the district court still has ‘wide discretion’ in formulating
the jury charge.” EMJ Corp. v. Hudson Specialty Ins. Co.,
833 F.3d 544, 550 (5th Cir. 2016).
The jury instruction at issue is as follows (challenged
portions emphasized):
To prove f r aud, A LE must show by a
preponderance of the evidence that Chrimar:
(1) made a misrepresentation of material fact to
ALE, (2) with knowledge of its falsity, (3) with
the intent to defraud ALE, (4) which induced

54a
Appendix F
justifiable reliance by ALE, and (5) which
resulted in damage to ALE. . . .
In order to prove fraud by omission, ALE must
show by a preponderance of the evidence that:
(1) Chrimar concealed or failed to disclose a
material fact within its knowledge from ALE;
(2) Chrimar had a duty to disclose that fact; (3)
Chrimar knew that ALE was ignorant of the
fact and ALE did not have an equal opportunity
to discover the truth; (4) Chrimar intended to
induce ALE to take some action by concealing
or failing to disclose the fact; (5) ALE relied
on Chrimar’s non-disclosure; and (6) ALE
was injured as a result of acting without that
knowledge.
J.A. 351-52 (emphases added).
ALE argues that the instruction improperly excluded
the possibility that Chrimar’s alleged misrepresentations
or omissions to the IEEE, in failing to submit a Letter of
Assurance regarding the four asserted standard-essential
patents, could support ALE’s fraud claim.6 ALE relies
on Exxon Corp. v. Emerald Oil & Gas Co., 348 S.W.3d
194 (Tex. 2011), for the proposition that common-law
6. ALE has not disputed Chrimar’s contention on appeal that
ALE “provided no evidence at trial regarding its predecessor’s
interest and involvement in the IEEE or the PoE standard-setting
process.” Chrimar Br. 52 n.19 (emphasis omitted) (quoting Chrimar
Sys., Inc. v. Alcatel-Lucent Enter. USA Inc., No. 6:15-cv-163, 2017
U.S. Dist. LEXIS 9819, 2017 WL 345991, at *3 (Jan. 24, 2017)).

55a
Appendix F
fraud under Texas law “does not require proof that the
entity committing the fraud—here, Chrimar—intended
to defraud the specific party that is making the fraud
allegation.” ALE Br. 68. We see no reversible error in
the district court’s decision to give the instruction it gave.
The district court’s instruction mirrors a statement
of the law in an intermediate Texas court of appeals
decision, 7979 Airport Garage, L.L.C. v. Dollar Rent A
Car Sys., Inc., 245 S.W.3d 488, 507 n.27 (Tex. App. 2007)
(reciting elements of a Texas state law fraud claim in
materially identical terms). That decision post-dates the
Texas Supreme Court’s decision in Ernst & Young, L.L.P.
v. Pac. Mutual Life Ins. Co., 51 S.W.3d 573 (Tex. 2001),
which announced the fraud standard later applied by
Exxon, 348 S.W.3d at 218-19. And after Exxon, the
Fifth Circuit itself recited (in an unpublished decision)
that same statement of the elements of a fraud claim from
the 7979 Airport Garage decision. Shaver v. Barrett Daffin
Frappier Turner & Engel, L.L.P., 593 F. App’x 265, 271
(5th Cir. 2014). Unless Exxon clearly showed those rulings
to be incorrect, the district court permissibly followed
them.
Exxon does not clearly show those rulings to be
incorrect. In Exxon, the court addressed the “intent to
induce” element of fraud. 348 S.W.3d at 217-18 (affirming
principle announced in Ernst & Young, 51 S.W.3d at
580-82). Emerald, a lessor of the O’Connor oil well field,
presented evidence that Exxon, the previous lessor,
filed public plugging reports with the Texas Railroad

56a
Appendix F
Commission with false representations regarding the
amount of reserves in the oil field, as well as evidence
that “the first place subsequent operators turn is to those
very filings at the Railroad Commission when deciding
whether redevelopment can be economically undertaken.”
Id. at 216-17. The Texas Supreme Court stated that
whether a party “might or should rely on statements” in
such reports “alone is not sufficient to establish an intent
to induce reliance.” Id. at 218. Rather, as in § 531 of the
Restatement (Second) of Torts (1977), “[o]ne who makes
a fraudulent misrepresentation is subject to liability to
the persons or class of persons whom he intends or has
reason to expect to act or to refrain from action in reliance
upon the misrepresentation, for pecuniary loss suffered
by them through their justifiable reliance in the type of
transaction in which he intends or has reason to expect
their conduct to be influenced.” Id. at 218-19 (quoting
Restatement § 531). As explained by the court:
[The] “reason-to-expect standard requires more
than mere foreseeability; the claimant’s reliance
must be ‘especially likely’ and justifiable, and
the transaction sued upon must be the type the
defendant contemplated.” Ernst & Young, 51
S.W.3d at 580 . . . . Even an obvious risk that a
misrepresentation might be repeated to a third
party is not sufficient to satisfy the reason-toexpect standard. A plaintiff must show that
“[t]he maker of the misrepresentation [has]
information that would lead a reasonable man to
conclude that there is an especial likelihood that
it will reach those persons and will influence

57a
Appendix F
their conduct.” [Restatement] § 531, cmt. d . . . ,
quoted in Ernst & Young, 51 S.W.3d at 581.
Id. at 219. As a matter of law, the court said, it is not enough
that Exxon “knew” that subsequent lessors would rely on
its reports; Exxon must have known that there was “an
especial likelihood that Emerald specifically would rely
on the plugging reports in a transaction being considered
at the time [Exxon] filed the plugging reports.” Id. The
Exxon court therefore ruled that the misrepresentation,
even in a public filing, must be directed at the defrauded
party. That court’s language can fairly be viewed in
the terms (intent even with some constructive aspect)
articulated before Exxon in 7979 Airport Garage (adopted
after Exxon by the Fifth Circuit in Shaver).
It is true that Texas law “does not require proof that
a misrepresentation be made to the defrauded party”
in the sense ALE suggests—in substance, directly to.
ALE Br. 68. But the jury instructions did not require
that the misrepresentation or omission be made “directly
to” ALE. The instructions permitted liability if the
misrepresentation or omission was made to ALE, whether
directly or indirectly. See Neuhaus v. Kain, 557 S.W.2d
125, 138 (Tex. Civ. App. 1977) (“We recognize the rule
that a fraudulent representation may be either direct or
indirect”). Perhaps the instruction would have benefited
from specifying that the fraudulent statement could be
made “directly or indirectly” to ALE; but ALE made no
request for inclusion of words to that effect. ALE objected
to the instruction on the ground that “[w]e think that the
evidence has shown that the - Chrimar has committed

58a
Appendix F
fraud on the IEEE in general and that it’s not necessary
to show fraud against ALE in this case.” J.A. 6919. The
district court could reasonably reject that proposal as
incorrectly suggesting that neither a direct nor indirect
misrepresentation is required. In these circumstances,
ALE lacks a meritorious argument on appeal for vacatur
of the fraud verdict based on erroneous instructions.
III
Chrimar cross-appeals the district court’s denial of its
motion for attorney fees under 35 U.S.C. § 285, which we
review for abuse of discretion. Highmark Inc. v. Allcare
Health Mgmt. Sys., Inc., 572 U.S. 559, 134 S. Ct. 1744,
1747, 188 L. Ed. 2d 829 (2014).
Chrimar’s argument relies chiefly on the ground
that ALE pressed a large number of defenses and
counterclaims for years, only to drop most of them (e.g.,
concerning antitrust, inequitable conduct, and some
invalidity grounds) late in the litigation, even during
trial. Chrimar does not meaningfully show that those
dropped claims were objectively meritless. It focuses on
the contention that ALE never truly intended to try them.
The district court did not abuse its discretion in
making what here was a case-specific judgment that it was
distinctively well-positioned to make. The court denied
summary judgment as to a number of the claims ALE
later dropped, allowing them to proceed. And the court
determined that ALE’s litigation decisions fell within
the range of ordinary practices involving the narrowing

59a
Appendix F
of claims for trial. Fees Order, 2017 U.S. Dist. LEXIS
220804 at *9.
We have considered Chrimar’s arguments that this
was an exceptional case as a matter of law and find them
unpersuasive. We therefore affirm the district court’s
ruling on ALE’s § 285 motion.
IV
We vacate in part the district court’s second claim
construction order—the part adopting a construction of
“adapted” in claim 31 of the ’012 patent, a construction
we reject. We affirm the district court’s remaining claim
constructions and the infringement damages award and
the fraud judgment. We remand for further proceedings
consistent with this opinion.
Each party shall bear its own costs.
AFFIRMED IN PART, VACATED IN PART, AND
REMANDED

60a
Appendix G memorandum
Appendix g — redacted
opinion and order of the united
states district court for the eastern
district of texas, tyler division, filed
february 13, 2017
United States District Court
for the Eastern District of Texas
Tyler Division
CIVIL ACTION NO. 6:15-CV-00163-JDL
CHRIMAR SYSTEMS, INC., CHRIMAR
HOLDING COMPANY, LLC,
Plaintiffs,
v.
ALCATEL-LUCENT ENTERPRISE USA INC.,
Defendant.
February 3, 2017, Decided
February 13, 2017, Filed
REDACTED MEMORANDUM OPINION
AND ORDER
Before the Court is: (1) Defendant Alcatel-Lucent
Enterprises USA, Inc. (“ALE”) Motion for Judgment
as a Matter of Law and Motion for A New Trial (Doc.
No. 378); and (2) Plaintiffs’ Chrimar Systems, Inc. d/b/a
CMS Technologies and Chrimar Holding Company

61a
Appendix G
LLC (“Chrimar” or “Plaintiffs”) Motion for Judgment
as a Matter of Law on ALE’s IEEE-related Equitable
Defenses and Counterclaims (Doc. No. 379). The Motions
have been fully briefed. For the reasons stated below,
Defendant’s Motion for Judgment as a Matter of Law
and Motion for a New Trial (Doc. No. 378) is DENIED.
Plaintiffs’ Motion for Judgment as a Matter of Law (Doc.
No. 379) is DENIED.
BACKGROUND
On March 9, 2015, Plaintiffs Chrimar Systems, Inc.
d/b/a CMS Technologies and Chrimar Holding Company
LLC (“Chrimar”) filed the instant action against ALE.
(Doc. No. 3.) In this action, Chrimar alleges infringement
of U.S. Patent Nos. 8,115,012 (“the ’012 Patent”), 8,902,760
(“the ’760 Patent”), 8,942,107 (“the ’107 Patent”), and
9,019,838 (“the ’838 Patent”) (“patents-in-suit”))1 .
Chrimar maintains that each of the patents-in-suit are
standard essential patents (“SEP”). Specifically, Chrimar
maintains that the patents-in-suit are SEPs for Power over
the Ethernet (“PoE”) standards IEEE 802.3af-2003 and
IEEE 803.3at-2009. This case proceeded through claim
construction, dispositive motions and pretrial, and the
trial between Chrimar and ALE commenced on October
3, 2016. The following claims, defenses, and counterclaims
were presented to the jury: damages, invalidity based on
derivation and improper inventorship, fraud, and breach
of contract. (Doc. No. 350.)
1. Prior to trial, ALE stipulated to infringement of all of the
asserted claims of the patents-in-suit. (Doc. Nos. 298, 337.)

62a
Appendix G
At the conclusion of Plaintiffs’ case-in-chief, ALE
moved pursuant to Rule 50(a) for judgment as a matter of
law on Plaintiffs’ allegations of willfulness and damages.
Trial Transcript “Tr.” at 612:17-616:3. The Court denied
ALE’s motion as to Plaintiffs’ damages model (Tr. at
616:8-9), and granted ALE’s motion as to willfulness
(Tr. at 624:4-7). At the close of Defendant’s case-in-chief,
Plaintiffs moved pursuant to Rule 50(a) on the following
issues: (1) infringement; (2) invalidity; (3) derivation;
(4) antitrust; (5) implied license; (6) fraud; (7) breach of
contract; and (8) damages reduction by noninfringing
alternatives. (Tr. at 964:14-984:14.) The Court denied all
of these motions, but granted as to written description
and enablement, the antitrust claim, and implied license.
(Tr. at 965:17-20; 966:12-18; 969:14; 969:25-970:1; 984:14;
986:4-9.) Additionally, at the close of evidence, the Court
also provided ALE an opportunity to present additional
evidence pertaining to ALE’s equitable defenses.
On October 7, 2016, the trial concluded and the jury
returned a verdict as follows: (1) Claims 31, 35, 43, and 60
of the ’012 Patent were not invalid; Claims 1, 5, 72, and 103
of the ’107 Patent were not invalid; Claims 1, 59, 69, 72,
and 145 of the ’760 Patent were not invalid, and Claims 1,
7, and 26 of the ’838 Patent were not invalid; (2) the sum
of money that would fairly and reasonably compensate
Chrimar for ALE’s infringement was $324,558.34; (3)
ALE did not prove by a preponderance of the evidence that
Chrimar committed fraud against ALE; and (4) ALE did
not prove by a preponderance of the evidence that Chrimar
breached a contract with the IEEE. (Doc. No. 349.) Both
Chrimar and ALE have now moved to renew their motions

63a
Appendix G
for judgment as a matter of law pursuant to Rule 50(b).
Specifically, ALE moves to renew its motion on damages
(Doc. No. 378); and Chrimar moves on all IEEE-related
claims and defenses, including (1) estoppel; (2) unclean
hands; (3) waiver; (4) implied license; (5) patent misuse;
(6) unenforceability; (7) breach of contract; (8) fraud; (9)
antitrust. (Doc. No. 379.)
LEGAL STANDARDS
I.

Judgment as a Matter of Law

A renewed motion for judgment as a matter of law
(“JMOL”) is a challenge to the legal sufficiency of the
evidence supporting the jury’s verdict. Power-One, Inc.
v. Artesyn Techs., Inc., 556 F. Supp. 2d 591, 593 (E.D.
Tex. 2008) (citing Flowers v. S. Reg’l Physician Servs.,
247 F.3d 229, 235 (5th Cir. 2001)). Rule 50 provides that
judgment as a matter of law is appropriate if the court
finds that a reasonable jury would not have a legally
sufficient evidentiary basis to find for the party on that
issue. Fed.R.Civ.P. 50(a)(1). In ruling on a renewed motion
for JMOL, the court may allow judgment on the verdict,
if the jury returned a verdict; order a new trial; or direct
the entry of judgment as a matter of law. Fed.R.Civ.P.
50(b). 2 A post-trial motion for JMOL should be granted
only when the facts and inferences so conclusively favor
one party “that reasonable jurors could not arrive at a
2. In order to advance a renewed motion for judgment as a
matter of law under Rule 50(b), the movant must raise the same
arguments during trial, in a Rule 50(a) motion for judgment as a
matter of law. Fed.R.Civ.P. 50 (a)-(b).

64a
Appendix G
contrary verdict.” TGIP, Inc. v. AT&T Corp., 527 F. Supp.
2d 561, 569 (E.D. Tex. 2007) (citing Tol-O-Matic, Inc. v.
Proma Produkt-Und Mktg. Gesellschaft m.b.H, 945 F.2d
1546, 1549 (Fed. Cir. 1991)). “If reasonable persons in
the exercise of impartial judgment could differ in their
interpretations of the evidence, then the motion should be
denied.” Id. Thus, a jury’s verdict may be overturned if,
viewing the evidence and inferences therefrom in the light
most favorable to the party opposing the motion, there is
no legally sufficient evidentiary basis for a reasonable jury
to find as the jury did. 3 Guile v. United States, 422 F.3d
221, 225 (5th Cir. 2005) (citing Delano-Pyle v. Victoria
County, 302 F.3d 567, 572 (5th Cir. 2002)). The court
may not make credibility determinations, nor weigh the
evidence. Power-One, 556 F. Supp. 2d at 594 (citing Reeves
v. Sanderson Plumbing Prods., Inc., 530 U.S. 133, 150,
120 S. Ct. 2097, 147 L. Ed. 2d 105 (2000)).
II. 	New Trial
Under Federal Rule of Civil Procedure 59, a new trial
may be granted to any party to a jury trial on any or all
issues “for any reason for which a new trial has heretofore
been granted in an action at law in federal court.”
Fed.R.Civ.P. 59. “A new trial may be granted, for example,
if the district court finds the verdict is against the weight
3. Because a motion for judgment as a matter of law is a
procedural matter not unique to patent law, the law of the regional
circuit governs under Rule 50(b). See SynQor, Inc. v. Artesyn Techs.,
709 F.3d 1365, 1373 (Fed. Cir. 2013) (“This court reviews the grant
or denial of a motion for JMOL under the law of the regional circuit
. . . .”).

65a
Appendix G
of the evidence, the damages awarded are excessive, the
trial was unfair, or prejudicial error was committed in its
course.” Smith v. Transworld Drilling Co., 773 F.2d 610,
612-13 (5th Cir. 1985). The Court is required to view the
evidence “in a light most favorable to the jury’s verdict,
and [] the verdict must be affirmed unless the evidence
points so strongly and overwhelmingly in favor of one
party that the court believes that reasonable persons could
not arrive at a contrary conclusion.” Dawson v. Wal-Mart
Stores, Inc., 978 F.2d 205, 208 (5th Cir. 1992).
ALE’S MOTION FOR JUDGMENT AS A MATTER
OF LAW AND MOTION FOR NEW TRIAL ON
DAMAGES
ALE moves for JMOL, a vacatur of the damages
verdict, or in the alternative, a new trial, on grounds
that Chrimar failed to prove damages. Specifically, ALE
claims that: (1) Chrimar’s damages expert, Mr. Mills,
improperly based his opinions on the Entire Market Value
Rule (“EMVR”); (2) Mr. Mills failed to properly apportion;
(3) the Court erred in its instruction on smallest saleable
unit; (4) the Court erred in allowing Chrimar to present
evidence of and rely on settlement agreements; and (5)
the Court erred in allowing Chrimar to present evidence
on Georgia-Pacific Factors 8, 9, and 10. (Doc. No. 378).
a. Applicable Law
The damages statute, 35 U.S.C. § 284, sets the
floor for “damages adequate to compensate for [patent]
infringement” at “a reasonable royalty for the use

66a
Appendix G
made of the invention by the infringer.” The burden of
proving damages falls on the patentee. Dow Chem. Co.
v. Mee Indus., Inc., 341 F.3d 1370, 1381 (Fed. Cir. 2003).
Calculation of a reasonable royalty requires determination
of two separate and distinct amounts: (1) the royalty base,
or the revenue pool implicated by the infringement; and (2)
the royalty rate, or the percentage of that pool “adequate
to compensate” the plaintiff for the infringement. See
Cornell Univ. v. Hewlett-Packard Co., 609 F. Supp. 2d
279, 286 (N.D.N.Y. 2009). A reasonable royalty is based
on a hypothetical negotiation that takes place between
the patentee and the infringer on the date infringement
began. Unisplay, S.A. v. American Electronic Sign Co.,
Inc., 69 F.3d 512, 517 (Fed. Cir. 1995). “Although this
analysis necessarily involves an element of approximation
and uncertainty, a trier of fact must have some factual
basis for a determination of a reasonable royalty.” Id.
The trial court has discretion to discern the reliability
of methods used to arrive at a reasonable royalty. See
SmithKline Diagnostics, Inc. v. Helena Labs. Corp., 926
F.2d 1161, 1164 (Fed. Cir. 1991) (“[D]ecisions underlying a
damage theory are discretionary with the court, such as,
the choice of an accounting method for determining profit
margin, or the methodology for arriving at a reasonable
royalty.”) (internal citations omitted)).
b. Analysis
1. 	Entire Market Value Rule
ALE argues that Mr. Mills improperly calculated his
royalties by “applying percentage rates from Chrimar’s

67a
Appendix G
past licenses to ALE’s net sales of the accused products,”
“which is equivalent to the entire market value of such
products.” (Doc. No. 378, at 5.) Chrimar points out
that ALE never objected to Mr. Mills’s testimony as
violating the EMVR, and argues that Mr. Mills properly
“apportioned the value of the patented technology and
arrived at a royalty rate tied to the number of PoE ports
per device, regardless of the price or revenue generated by
the product,” and that “he does not use the entire accused
device as the royalty base.” (Doc. No. 393, at 5.)
In determining a reasonable royalty for a multicomponent product, it is generally required that “royalties
be based not on the entire product, but instead on the
‘smallest salable patent-practicing unit.’” LaserDynamics,
Inc. v. Quanta Computer, Inc., 694 F.3d 51, 67 (Fed. Cir.
2012). The entire market value rule is an exception to
this rule, and “allows a patentee to assess damages
based on the entire market value of the accused product
only where the patented feature creates the ‘basis for
customer demand’ or ‘substantially create[s] the value
of the component parts.’” Uniloc USA, Inc. v. Microsoft
Corp., 632 F.3d 1292, 1318 (Fed. Cir. 2011) (quoting Lucent
Techs. V. Gateway, Inc., 580 F.3d 1301, 1336 (Fed. Cir.
2009); Rite-Hite Corp. v. Kelley Co., 56 F.3d 1538, 1549-50
(Fed. Cir. 1995)).
The accused devices in this case were Powered Device
(“PD”) and Power Sourcing Equipment (“PSE”) products
compliant with the relevant IEEE PoE standards.
Sealed Tr. at 17:9-18:12; Doc. No. 206, at 4. Specifically,
Chrimar accused ALE’s PD products such as wireless

68a
Appendix G
access points, VOIP phones, and WLAN controllers that
comply with the PoE standard. Id. As an initial matter,
Mr. Mills did not base his reasonable royalty off of the
entire accused device.4 Instead, Mr. Mills testified that he
used PoE ports as a royalty base. Sealed Tr. at 8:7 -9. In
fact, the parties agreed to the number of PoE ports as a
royalty base on which the jury was instructed. See Final
Jury Instructions (Doc. No. 350, at 19) (“[i]n this case, the
parties have stipulated that there are 268,971 ports sold
by ALE that create the royalty base.”) ALE did not then,
nor does it now, object to this instruction.
When ALE filed its initial Daubert motion challenging
Mr. Mills’s opinions, ALE did not accuse Mr. Mills’s
opinions of violating the EMVR. (Doc. No. 205.) It was
not until ALE’s reply brief that ALE first challenged Mr.
Mills’s opinions based on the EMVR. 5 (Doc. No. 228.) In
its reply, the only basis ALE identified as violating the
EMVR was Mr. Mills’s comparison of PoE premiums that
were based on the sale of an end product. (Doc. No. 228,
at 3.) As to that specific challenge, the Court found that
“Mr. Mills’s consideration of the price difference between
4. ALE disputes this because they contend the ports are not
distinct components. (Doc. No. 378, at 5.) Regardless, it is undisputed
that Mr. Mills did not use the entire revenue of the accused devices to
begin his analysis, but instead started his analysis with an average
revenue per PoE port. Id.; Sealed Tr. at 53:4-12.
5. See Jones v. Cain, 600 F.3d 527, 541 (5th Cir. 2010)
(“Arguments raised for the first time in a reply brief are generally
waived.”) Although this argument was waived during briefing, the
Court nonetheless considered the argument in ruling on ALE’s
Daubert motion.

69a
Appendix G
Defendants’ products that include PoE functionality and
those that do not include PoE functionality, does not
violate the entire market value rule” because “Mr. Mills
is not using the revenue numbers of the final products to
establish a royalty base or to assess damages based on the
entire market value of the accused products, but instead
has isolated the premium in an attempt to apportion and
value the patented features.” (Doc. No. 253, at 7.)
Despite the fact that Mr. Mills’s damages opinions
have not changed, not once did ALE affirmatively raise
an issue with respect to his opinions and the EMVR, let
alone the plethora of issues it now outlines for the Court
in its JMOL. Indeed, ALE filed a second motion to strike
Mr. Mills’s opinions and again did not raise any argument
that his opinions violated the EMVR. (Doc. No. 284.)
Similarly, ALE did not challenge these opinions at the
pretrial conference. (Doc. No. 268.) Most importantly,
not once during the entirety of Mr. Mills’s testimony, did
ALE object. Sealed Tr. at 5:5-34:6. Thus, ALE waived
its contention it now brings that Mr. Mills violated the
EMVR. Rather than objecting to Mr. Mills’s testimony
on this basis, at trial, ALE instead attempted to insert
the EMVR in cross examining Mr. Mills. For example,
ALE’s Motion begins by citing a portion of Mr. Mills’s
testimony that was solicited on cross-examination. (Doc.
No. 378, at 4.) [TEXT REDACTED BY THE COURT] In
the entirety of that testimony, Mr. Mills actually explained
that [TEXT REDACTED BY THE COURT]
Next, ALE argues that Mr. Mills violated the EMVR
by using net sales of the accused products in his analysis

70a
Appendix G
of past licenses. (Doc. No. 378, at 5.) As Mr. Mills testified,
where he looked at past licenses and considered net sales,
he did so in order to do a direct comparison because those
past licenses were running royalty agreements based on
a percentage of net revenue. Sealed Tr. at 6:12-16; 8:1621. Because the royalty bearing licenses were negotiated
based on the invention or comparable inventions—not the
value of the accused products—the starting point for such
an analysis cannot be said to be off of the total revenue of
the accused product. Thus, multiplying a running royalty
from a past license that was based on a percentage of
net sales to ALE’s net sales of the accused products
does not violate the EMVR. Instead, it provides a direct
comparison to apportion the value of the technology (as
previously licensed) and ascertain a reasonable royalty
as to ALE.
In sum, Mr. Mills is not using the revenue numbers of
the final products to establish a royalty base or to assess
damages based on the entire market value of the accused
products. Accordingly, ALE’s motion is DENIED as to its
challenges based on EMVR.
2.

Apportionment

ALE argues that Mr. Mills failed to apportion for the
features of the accused products that are unrelated to
PoE, that he failed to apportion for the patented versus
unpatented features of the PoE standard, and that he
failed to apportion for the value of standardization. (Doc.
No. 378, at 7-10.)

71a
Appendix G
During direct examination, Mr. Mills identified for
the jury these three issues with respect to apportionment
in this case:
Q. Now, do we have any particular apportionment
issues in this case that we need to talk about?
A. Yes. There are three issues in this case. One
is the value of PoE functionality. The products
at issue here have other functionality besides
just PoE functionality; so, we need to focus,
when we’re talking about profit, on the profit
associated with PoE functionality.
The second is within PoE functionality there are
technologies that are covered by the patentsin-suit and technologies that are not. And, so,
we need to focus the analysis on the aspects of
PoE that are covered by the patents-in-suit.
And, finally, we need to consider the value of
standardization to determine whether the act
of standardization itself provided any kind of
artificial value or enhanced value to the patentsin-suit.
(Sealed Tr. at 21:7-23.)
Mr. Mills then went on to testify as to how he
accounted for apportionment in each of these manners.
Sealed Tr. at 22:5-26:22. With respect to apportionment
of the value of the patented PoE technology, Mr. Mills

72a
Appendix G
testified that he was able to look at PoE price and profit
premiums to compare the prices (and profits) of the exact
same products with and without the PoE functionality.
Sealed. Tr. at 22:5-25:12. [TEXT REDACTED BY THE
COURT] Sealed Tr. at 24:10-13. The use of price and
profit premiums from the sale of non-PoE products as
compared to the same products with PoE functionality is a
measurable and appropriate way to isolate the value of the
PoE functionality. This analysis alone allowed Mr. Mills to
begin to apportion the value of the patented technology.
With respect to the value of the patented features
contained in the standard, Mr. Mills testified that he
relied on Dr. Madisetti’s opinions that “the patents-insuit relate to the majority and the most critical aspects
of the standard,” and that therefore the patents “should
be credited with a significant portion of this profit
premium”—[TEXT REDACTED BY THE COURT]
discussed above. Sealed Tr. at 25:13-26:11. Mr. Mills then
testified that this information indicated his $2.50 per
port rate was inherently reasonable. Id. And ultimately,
Mr. Mills testified that $2.50 was reasonable for just the
contributions of the patents and setting aside artificial
value due to standardization. Sealed Tr. at 26:12-22.
The jury heard evidence that the profit premium on
ALE’s accused products that include the PoE functionality
is [TEXT REDACTED BY THE COURT] As discussed
above, because this premium is the difference between
the same products that have and do not have the PoE
functionality, it is a reliable indicator of the value of
the PoE functionality. The jury was thus then able to

73a
Appendix G
consider Mr. Mills’s $2.50 royalty rate as a fraction of
that value that he opined was reasonable based on Dr.
Madisetti’s opinions regarding the importance of the
patented technology to the standard and irrespective of
any value from standardization itself.6 Moreover, the jury
heard evidence as to how Mr. Mills’s analysis of Chrimar’s
past license agreements led him to believe $2.50 was a
reasonable rate. Sealed Tr. at 5:5-6:16; 28:3-29:7. The
jury also heard Mr. Mills testify regarding a [TEXT
REDACTED BY THE COURT] that Mr. Mills testified
showed what ALE was willing to pay for comparable
technology. Sealed Tr. at 9:5-10:23. [TEXT REDACTED
BY THE COURT] Sealed Tr. at 10:8-11.
The jury heard all of this testimony and evidence on
apportionment and ultimately did not fully accept Mr.
Mills’s rate, but determined a rate of $1.2067 per port
was reasonable:
2. QUESTION 2- DAMAGES
Answer Question No. 2 only if you have found at
least one claim in Question No. 1 is not invalid
(i.e. wrote “No” in any blank).
W hat sum of money do you f ind by the
preponderance of the evidence would fairly
6. The jury heard Dr. Madisetti’s testimony on the importance
of the “detection” and “classification” aspects of the patented
inventions as it relates to the IEEE standard. See, e.g., Tr. at 316:23319:10. The jury was allowed to weigh the credibility of this testimony
based on the evidence presented.

74a
Appendix G
and reasonably compensate Chrimar for ALE’s
infringement of the patent claims?
$324,558.34 ($1.2067 per port)
(Doc. No. 349, at 2.)
In light of the testimony that was provided at trial,
the Court finds that substantial evidence supported the
jury’s damages determination. Accordingly, the Court
DENIES ALE’s request for judgment as a matter of law
that Chrimar failed to prove damages.
3. 	The Court’s Instructions
Finally, ALE argues that the Court erred in three
ways: (1) its instructions on the smallest saleable unit; (2)
by allowing Chrimar to present evidence of settlement
agreements to support its royalty rate; and (3) by allowing
Chrimar to present evidence on Georgia-Pacific Factors
8, 9, and 10. (Doc. No. 378, at 11-16.)
i. 	Smallest Saleable Unit
As to the instructions on the smallest saleable unit,
ALE objects to the following instruction by the Court:
A product may have both infringing and noninfringing components. In such products,
royalties should be based not on the entire
product, but instead on the “smallest saleable
unit” that infringes each asserted claim of the

75a
Appendix G
patents and has close relation to the chimed
invention. Where the smallest saleable unit is,
in fact, a multi-component product containing
several non-infringing features with no relation
to the patented feature, damages must only
be based on the portion of the value of that
product that is attributable to the patented
technology. This may involve estimating the
value of a feature that may not have ever been
individually sold.
(Doc. No. 350, at 19.)
As discussed above, while the Court did not intend to
provide this instruction based on the testimony presented
in this case, because ALE interjected this issue during the
cross-examination of Mr. Mills, the Court felt it necessary
to clarify the issue for the jury. Not surprisingly, it was
ALE who proposed and argued for such an instruction in
the first place. (Doc. No. 317, at 64.) ALE now objects to
the change from “the ‘smallest salable unit’ that practices
the patent and has close relation to the claimed invention”
to “the ‘smallest salable unit’ that infringes the patent
and has close relation to the claimed invention.” (Doc.
No. 378, at 11.)
As an initial matter, ALE did not clearly object on
the bases it now raises. At the charge conference, counsel
for ALE stated “I don’t think any change needs to be
made” and that a change would be “to basically just skew
the argument in favor of the Madisetti testimony.” Tr.
at 1099:23-1100:14. Thus, the arguments now raised are

76a
Appendix G
extraneous to what was raised on the record and have been
waived. However, even if not waived, the focus of ALE’s
current argument is on the need to include the idea that
the “smallest saleable unit” have “close relation to the
claimed invention.” The Court instructed the jury that
the smallest saleable unit must have “close relation to the
claimed invention.” (Doc. No. 350, at 19.) Thus, the only
real objection can be some imputed difference between the
words “practice” and “infringe.” ALE has not explained
the significance of that difference such that a new trial
would be warranted. Moreover, even if an error was made
in stating the word “infringes” instead of “practices” in
the instructions, that error was harmless because, as
discussed above, the royalty base was agreed and the jury
was instructed on the exact per port base at issue in this
case. See Final Jury Instructions (Doc. No. 350, at 19)
(“[i]n this case, the parties have stipulated that there are
268,971 ports sold by ALE that create the royalty base.”)
For these reasons, the Court DENIES ALE’s request for
judgment and a new trial based on this instruction.
ii. 	Settlement Licenses
As to the settlement licenses, ALE did not challenge
these licenses as unreliable in its Daubert motions or
during the pretrial proceedings. See Doc. Nos. 205,
284, 268.7 ALE also did not object to this evidence and
7. ALE’s only objection to the licenses in its Daubert motion
was that the licenses were entered after industry adoption of the
standard and that therefore Mr. Mills did not properly account for
the value of the standard. (Doc. No. 205, at 12-13.) ALE raised no
objection to reliance on these licenses because they were the result
of a litigation settlement—the challenge it now raises.

77a
Appendix G
testimony regarding the licenses at trial. In fact, each
of the licenses were admitted into evidence without
objection. Tr. at 602:1-16. Accordingly, this argument was
waived. ALE’s failure to timely raise objections on the
issues it now presents to the Court is a consistent theme
throughout its JMOL. While the Court functions as a
gatekeeper, it is the litigant’s responsibility to raise issues
they believe warrant gatekeeping in a timely manner at
an appropriate stage in the case. Here, the Court held
an early damages hearing on April 19, 2016, where early
damages expert reports were exchanged by the parties
on March 31, 2016. As early as that point in time, ALE
knew Mr. Mills was relying on these license agreements
and yet never challenged those opinions or testimony
during pretrial or trial.
Finally, even if the settlement licenses here had
not been presented to the jury, the jury’s verdict is still
supported by the additional evidence discussed above
including the PoE premiums. Accordingly, there is no
basis for a judgment of no damages or a new trial based
on this evidence and the Court DENIES ALE’s requests.
iii. Georgia-Pacific Factors 8, 9, and 10
As to Georgia-Pacific Factors 8, 9, and 10, it was the
Court that first raised a concern on these issues with the
parties. Again, ALE has filed a motion for judgement as
a matter of law on an issue that ALE did not raise with
respect to Mr. Mills’s opinions before or during trial.
When Mr. Mills testified as to these factors during the
trial, ALE did not object to this testimony. Sealed Tr. at

78a
Appendix G
5:5-34:6. The Court, recognizing the precedent on this
issue and having concerns with Mr. Mills’s testimony, had
to call the parties into chambers to discuss if and how the
Court could proceed in light of Mr. Mills’s testimony. The
Court and the parties were in agreement that any harm
could be cured with specific jury instructions. Therefore,
the Court carefully crafted its final instructions to the
jury to address this issue. Specifically, the Court removed
factors 8, 9, and 10 from its list of factors to be considered
and instead instructed the jury as follows:
You may a lso consider the est abl ished
profitability of the product made under the
patents, its commercial success, and its
current popularity; the utility and advantages
of the patented property over the old modes
or devices, if any, that had been used for
working out similar results; and the nature of
the patented invention, the character of the
commercial embodiment of it as owned and
produced by the licensor, and the benefits to
those who have used the invention. However,
if you consider these factors you must also
consider the standard’s role (as opposed to the
patents’ role) in causing commercial success, as
well as the standard’s role in the profitability of
the accused products and the accused products’
popularity. In addition, you must consider the
benefits of the standard over old modes as well
as the benefits to those who use the standard
to which the patents-in-suit are alleged to be
essential. You must take this into consideration

79a
Appendix G
because the patentee’s royalty must be premised
only on the value of the patented feature, not
any value added by the standard’s adoption
of the patented technology. These steps are
necessary to ensure that the royalty award
is based on the incremental value that the
patented invention adds to the product, not
any value added by the standardization of that
technology. In other words, the patent holder
should only be compensated for the approximate
incremental benefit derived from his invention.¶
This is particularly true for standard essential
patents. When a technology is incorporated into
a standard, it is typically chosen from among
different options. Once incorporated and widely
adopted, that technology is not always used
because it is the best or the only option; it is
used because its use is necessary to comply
with the standard. In other words, widespread
adoption of a standard essential technology is
not entirely indicative of the added usefulness
of an innovation over the prior art.
(Doc. No. 350, at 18-19.)
The Court finds these instructions were sufficient
to cure any harm that may have come from Mr. Mills’s
testimony on these factors. Indeed, the Federal Circuit
has never stated that these factors should be all together
removed in a case involving standard essential patents,
but instead that they should be modified. For example, in
Ericsson, the Federal Circuit stated as follows:

80a
Appendix G
Several other Georgia-Pacific factors would at
least need to be adjusted for RAND-encumbered
patents—indeed, for SEP patents generally.
For example, factor 8 accounts for an invention’s
“current popularity,” which is likely inflated
because a standard requires the use of the
technology. Factor 9—“utility and advantages
of the patented invention over the old modes or
devices,”—is also skewed for SEPs because the
technology is used because it is essential, not
necessarily because it is an improvement over
the prior art. Factor 10, moreover, considers the
commercial embodiment of the licensor, which is
also irrelevant as the standard requires the use
of the technology. Other factors may also need
to be adapted on a case-by-case basis depending
on the technology at issue. Consequently,
the trial court must carefully consider the
evidence presented in the case when crafting
an appropriate jury instruction. In this case,
the district court erred by instructing the jury
on multiple Georgia-Pacific factors that are not
relevant, or are misleading, on the record before
it, including, at least, factors 4, 5, 8, 9, and 10 of
the Georgia-Pacific factors.
See Ericsson, Inc. v. D-Link Sys., Inc., 773 F.3d 1201, 1231
(Fed. Cir. 2014) (emphasis added).
Given this precedent, the Court’s instructions on these
issues were proper and Mr. Mills’s testimony cited by ALE
was not so harmful that the bell could not be “unrung”

81a
Appendix G
as ALE claims. It is again important emphasize that
litigants carefully consider the testimony and evidence
presented to the jury and timely raise objections where
appropriate. While the Court will always proactively
scrutinize evidence that comes in during a trial to ensure
the jury is not impermissibly tainted by any testimony
and/or evidence, the Court must also rely on litigants
to raise meritorious objections when warranted. In this
case, not a single objection was raised by counsel and
the parties submitted proposed agreed jury instructions
with a parroted list of Georgia-Pacific factors. (Doc. No.
317, at 59-63.) This issue should have been teed up by the
parties long before trial when the Court had to initiate
the conversation with the parties and conduct a chambers
conference, delaying the trial and making the jury wait in
recess. Given the circumstances, however, in this instance
the harm could be cured with proper instructions from the
Court, as was done here. Therefore, the Court DENIES
ALE’s request for a new trial on this basis.
CHRIMAR’S MOTION FOR JUDGMENT AS
A MATTER OF LAW AS TO IEEE RELATED
CLAIMES AND DEFENSES
Chrimar moves for judgment as a matter of law on
all IEEE related equitable defenses and counterclaims.
(Doc. No. 379.) As a preliminary matter, Chrimar moves
on the basis that all of the equitable defenses require a
duty of disclosure for which Chrimar seeks a judgment
that it owed no such duty. (Doc. No. 379, at 1-2.) This
Court has already issued an order finding that on the
evidence presented “Chrimar did not owe a duty of

82a
Appendix G
affirmative disclosure to the IEEE.” (Doc. No. 413, at
6.) A judgment will be entered in accordance with that
finding. Accordingly, Chrimar’s JMOL is DENIED as
moot as to that point. Specifically, the Court has issued
findings that ALE did not carry its burden on claims of
equitable estoppel, unclean hands, and waiver. (Doc. No.
413.) Accordingly, as to those defenses, Chrimar’s JMOL
is DENIED as moot.
As to the implied license defense, the Court granted
Chrimar’s JMOL on implied license pursuant to Rule
50(a) during trial. Tr. at 986:4-9. Accordingly, Chrimar’s
request to enter renewed judgment on that defense
pursuant to Rule 50(b) is DENIED as moot.
As to the claims of breach of contract and fraud, the
jury found that ALE did not prove those claims by a
preponderance of the evidence. (Doc. No. 349.) Chrimar’s
renewed motion for JMOL merely seeks to confirm its
favorable outcome on those issues. Accordingly, because
Chrimar prevailed on those claims at trial, Chrimar’s
renewed motion for JMOL as to those claims is DENIED
as moot.
Finally, Chrimar moves on the remainder of IEEE
defenses and claims that were not presented by ALE at
trial, including claims pursuant to monopolization under
§ 2 of the Sherman Act and patent misuse. While the
antitrust claim was specifically raised by Chrimar in a
50(a) motion at the close of evidence, and subsequently
granted by the Court (Tr. at 969:15-970:1), to clarify the
record, the Court’s intention in granting that motion was

83a
Appendix G
to confirm that that issue was not going to be presented
to the jury as the parties were in agreement that evidence
on that claim had not been presented and the claim was no
longer being pursued. As to these claims specifically, and
all claims and defenses that were not presented at trial,
the Court DENIES Chrimar’s request to enter judgment
as a matter of law. The Court will not enter judgment on
claims that were dropped and not presented at trial.
CONCLUSION
ALE’s Motion for Judgment as a Matter of Law
and New Trial (Doc. No. 378) is DENIED. Chrimar’s
Motion for Judgment as a Matter of Law (Doc. No. 379)
is DENIED as set forth herein. Final judgment will issue
as a separate order.
Within 7 days of the issuance of this Order, the parties
shall jointly submit a proposed redacted version of this
Order so that a public version can be made available.
So ORDERED and SIGNED this 3rd day of
February, 2017.
/s/ John D. Love		
JOHN D. LOVE
UNITED STATES MAGISTRATE
JUDGE

84a
Appendix H of the united
Appendix h — JUDGMENT
states court of appeals for the
federal circuit, filed september 19, 2019
United States Court of Appeals
for the Federal Circuit
2018-1499, 2018-1500, 2018-1503, 2018-1984
CHRIMAR SYSTEMS, INC.,
Appellant,
v.
JUNIPER NETWORKS, INC., RUCKUS
WIRELESS, INC., NETGEAR, INC.,
Appellees.
September 19, 2019, Filed
TARANTO, CLEVENGER, and HUGHES, Circuit
Judges.
JUDGMENT
This Cause having been heard and considered, it is
Ordered and A djudged:
AFFIRMED
Per Curiam

85a
I REHEARING
Appendix I — Appendix
DENIAL OF
of the united states court of appeals
for the federal circuit, filed
december 13, 2019
United States Court of Appeals
for the Federal Circuit
2018-2420
CHRIMAR SYSTEMS, INC., DBA CMS
TECHNOLOGIES, INC., CHRIMAR HOLDING
COMPANY, LLC,
Plaintiffs-Appellees,
v.
ALE USA INC., FKA ALCATEL-LUCENT
ENTERPRISE USA, INC.,
Defendant-Appellant.
Appeal from the United States District Court for
the Eastern District of Texas in No. 6:15-cv-00163-JDL,
Magistrate Judge John D. Love.
ON PETITION FOR REHEARING EN BANC
Before P ro s t , Chief Judge, Ne w m a n , L ou r i e ,
Clevenger*, Dyk, Moore, O’malley, Reyna, Wallach,
Taranto, Chen, Hughes, and Stoll, Circuit Judges.
Per Curiam.
* Circuit Judge Clevenger participated only in the decision on
the petition for panel rehearing.

86a
Appendix I
ORDER
Appellees Chrimar Holding Company, LLC and
Chrimar Systems, Inc. filed a petition for rehearing en
banc. A response to the petition was invited by the court
and filed by Appellant ALE USA Inc. The petition was
first referred as a petition for rehearing to the panel that
heard the appeal, and thereafter the petition for rehearing
en banc was referred to the circuit judges who are in
regular active service.
Upon consideration thereof,
It is ordered that:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on December 20,
2019.
				

For the Court

December 13, 2019		
/s/ Peter R. Marksteiner
	Date			Peter R. Marksteiner
				Clerk of Court

